<html>
<title> - AN OVERVIEW OF THE ADMINISTRATION'S FEDERAL RESEARCH AND DEVELOPMENT BUDGET</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  AN OVERVIEW OF THE ADMINISTRATION'S
                FEDERAL RESEARCH AND DEVELOPMENT BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 17, 2011

                               __________

                            Serial No. 112-2

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
64-431                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d1a052a091f191e020f061a4409050744">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY


                            C O N T E N T S

                           February 17, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    21
    Written Statement............................................    22

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    23
    Written Statement............................................    24

                                Witness:

Dr. John P. Holdren, Assistant to the President for Science and 
  Technology and Director of the Office of Science and Technology 
  Policy (OSTP)
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    36

Discussion.......................................................    37

             Appendix 1: Answers to Post-Hearing Questions

Dr. John P. Holdren, Assistant to the President for Science and 
  Technology and Director of the Office of Science and Technology 
  Policy (OSTP)..................................................    70


 AN OVERVIEW OF THE ADMINISTRATION'S FEDERAL RESEARCH AND DEVELOPMENT 
                                 BUDGET

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 11:38 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order.
    Good morning. We welcome today a hearing entitled ``An 
Overview of the Administration's Federal Research and 
Development Budget for Fiscal Year 2012.'' In front of each of 
you I think are packets containing the written testimony, 
biography and the truth in testimony disclosure of today's 
witness, Dr. John P. Holdren. I recognize myself for five 
minutes for an opening statement.
    Dr. Holdren, I would like to welcome you to the Committee 
today. We all understand the influence the OSTP can have on the 
Administration's direction in science and technology. Today's 
hearing obviously covers a great deal of ground, so I will try 
to be brief. At the same time, there are some specific points 
that I would like to address before we hear from you.
    Our debt today is slightly over $14 trillion, and our 
Nation's budget deficit has increased 50 percent over the last 
three years, and yet the amount of new debt proposed in this 
budget is greater than the total amount of debt accumulated by 
the Federal Government from 1789--and my children, I remember 
that date--to the day President Obama took the Oath of Office. 
This level of spending is simply not sustainable.
    While it is true that prudent investments in science and 
technology will almost certainly yield future economic gains 
and will allow our knowledge and economy to grow, it is also 
true that these gains can be thwarted by poor decision-making. 
Americans expect and deserve better. With our unemployment 
hovering at nine percent, they expect us to reduce or eliminate 
those programs that are duplicative and wasteful and examine 
ways to advance real job creation and economic growth, not just 
spend their hard-earned money on what the government assumes is 
best for them.
    In his State of the Union address, President Obama spoke of 
the need to reinvigorate our future through innovation. 
American ingenuity is going to determine our future. However, 
blanket increases in our federal spending are not the same as 
prudent investment and do not guarantee innovation.
    As stewards of the taxpayers' dollars, we have to curtail 
runaway spending and prioritize programs that lay the 
foundation for entrepreneurial success. I recognize that the 
President is making similar statements, yet the 
Administration's fiscal year 2012 R&D budget, at least as it 
pertains to a majority of the agencies within this Committee's 
jurisdiction, continues a heavily weighted focus on climate 
change, oftentimes taking money from other worthy investments. 
This rather singular focus for the Federal Government's limited 
research dollars slows our ability to make innovative and 
certainly it slows it down, other than revealing slows it to 
make innovative and perhaps life-altering advances in other 
equally, if not more important, disciplines.
    The National Science Foundation, DOE's Office of Science, 
the National Institute of Standards and Technology, and the 
National Oceanic and Atmospheric Administration are all 
investing in remarkable research that seeks the improvement of 
the way we live our lives. Previous investments brought about 
the Internet, the laser, barcodes, MRIs and even sunscreen. 
While we should continue to study our changing climate and 
continue to work towards keeping our air and water clean, we 
must closely examine the billions of dollars spent on climate 
change programs with an eye toward effectiveness. From 2006 to 
now, we have spent $36 billion on climate change and what do we 
have to show for it? A lot of programs and pamphlets. We need 
to change that.
    With regard to NASA, last year's Congress reauthorized the 
space agency and sent a strong signal to this Administration, 
which disturbingly, they have not followed in the area of human 
space exploration. For our space program to remain competitive 
and ensure our national security, we have to stay the course 
and develop the next-generation launch vehicle that has the 
capability to reach outer space and beyond. Our country cannot 
afford an ill-focused space program. I am concerned that the 
President's budget defies Congress' direction with respect to 
the exploration account and will have some questions for you 
with respect to that decision.
    Dr. Holdren, we remain committed to assisting you as we 
move forward, but hope you will take the message back to the 
President that we continue to have significant concerns with 
the Administration's priorities for our Nation's precious and 
limited R&D dollars.
    I thank you, and we look forward to your testimony.

    [The prepared statement of Chairman Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall

    Dr. Holdren, I would like to welcome you to the Committee today. We 
all understand the influence the OSTP Director can have on the 
Administration's direction in science and technology. Today's hearing 
obviously covers a great deal of ground, so I will try to be brief. At 
the same time, there are some specific points that I would like to 
address before we hear from you.
    Our debt today is slightly over $14 trillion dollars, and our 
Nation's budget deficit has increased 50 percent over the last three 
years. And yet the amount of new debt proposed in this budget is 
greater than the total amount of debt accumulated by the federal 
government from 1789 to the day President Obama took the Oath of 
Office. This level of spending is simply not sustainable.
    While it is true that prudent investments in science and technology 
will almost certainly yield future economic gains and will allow our 
knowledge economy to grow, it is also true that these gains can be 
thwarted by poor decision-making. Americans expect and deserve better. 
With our unemployment hovering at over 9 percent, they expect us to 
reduce or eliminate those programs that are duplicative and wasteful 
and examine ways to advance real job creation and economic growth, not 
just spend their hard-earned money on what the government assumes is 
best for them.
    In his State of the Union address, President Obama spoke of the 
need to reinvigorate our future through innovation. American ingenuity 
will determine our future. However, blanket increases in our Federal 
spending are not the same as prudent investment and do not guarantee 
innovation. As stewards of the taxpayers' dollars, we must curtail 
runaway spending and prioritize programs that lay the foundation for 
entrepreneurial success.
    I recognize that the President is making similar statements; yet 
the Administration's FY12 research and development budget, at least as 
it pertains to a majority of the agencies within this Committee's 
jurisdiction, continues a heavily weighted focus on climate change, 
often times taking money from other worthy investments. Tills rather 
singular focus for the Federal government's limited research dollars 
slows our ability to make innovative and perhaps life altering advances 
in other equally, if not more important, disciplines. The National 
Science Foundation, DOE's Office of Science, the National Institute of 
Standards and Technology, and the National Oceanic and Atmospheric 
Administration are all investing in remarkable research that seeks to 
improve the way we live our lives. Previous investments brought about 
the internet, the laser, barcodes, MRIs, and even sunscreen. While we 
should continue to study our changing climate and continue to work 
towards keeping our air and water clean, we must closely examinethe 
billions of dollars spent on climate change programs with an eye toward 
effectiveness. From 2006 to now, we have spent $36 billion on climate 
change and what do we have to show for it? A lot of programs and 
pamphlets. We need to change that.
    With regard to NASA, last year Congress reauthorized the space 
agency and sent a strong signal to this Administration, which, 
disturbingly, they have not followed in the area of human space 
exploration. For our space program to remain competitive and ensure our 
national security, we must stay the course and develop the next-
generation launch vehicle that has the capability to reach outer space 
and beyond. Our country cannot afford an ill-focused space program. I 
am concerned "that the President's budget defies Congress's direction 
with respect to the exploration account and will have some questions 
for you with respect to that decision.
    Dr. Holdren, we remain committed to assisting you as we move 
forward, but hope you will take the message back to the President that 
we continue to have significant concerns with the Administration's 
priorities for our Nation's precious and limited research and 
development dollars.
    Thank you, and we look forward to your testimony.

    Chairman Hall. The Chair now recognizes Ranking Member Ms. 
Johnson for an opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and welcome 
back to the committee, Dr. Holdren.
    We are in a very unusual situation today. We are here today 
to discuss the President's fiscal year 2012 budget request, 
even as the fiscal year 2011 budget remains in play, so I hope 
we can keep the numbers and the years straight. However, even 
if we jump back and forth in terms of what year we are talking 
about, the key issues that we need to address remain the same: 
how best to keep America competitive and create a better future 
for our children and grandchildren.
    With the C.R. the House is debating this week, I am afraid 
we are heading in the wrong direction and I am worried for our 
country and for our own grandchildren and what kind of 
opportunities they will have in the future. As we focus on the 
need to create jobs both now in the coming years, we need to 
make sure that we are taking steps to ensure that we remain 
economically strong and competitive in a challenging 
international marketplace. This committee has heard countless 
witnesses from industry, academia and government over the past 
several years testify that investments in science, technology 
and STEM education must be a cornerstone of any serious long-
term strategy to keep America competitive. While we also need 
to address tax and other policies that affect innovation, none 
of those policies will be of any use of we don't first invest 
in human capital and the research that makes innovation 
possible.
    Let me be clear: While we debate turning the lights off on 
groundbreaking research projects, shuttering the world-class 
research facilities, stopping emerging industries in their 
tracks and losing many of our best and brightest scientists and 
innovators from the STEM pipeline for good, our competitors in 
China, India and elsewhere are surging ahead in their 
investments in R&D and in emerging industries. They are going 
to eat our lunch. They are right now, as a matter of fact, and 
then our dinner and dessert too. Now is simply not the time to 
take a hatchet to federally funded R&D and STEM education.
    Having said that, I still find reason to be hopeful that as 
we kick off today's hearing. Our federal R&D agencies have a 
long history of investing in research and education programs 
that return huge economic payoffs to the American people.
    The fiscal year 2012 R&D budget proposal being presented to 
us today by Dr. Holdren reflects the imperative to invest in 
our future and at the same time acknowledges the fiscal 
environment in which we find ourselves. Truthfully, I would 
like to see more, including for NASA, for information 
technology research and for programs that have demonstrated 
success in broadening the participation of women and 
underrepresented minorities in STEM. Instead, the budget 
proposes to hold many of those programs flat once again. 
However, I also understand that the President had to make some 
very tough decisions in developing this year's budget request. 
We can disagree over some of the specific choices but I 
believe, Dr. Holdren, that we share the same goals of 
maintaining a strong national science and technology enterprise 
and ensuring our young people are prepared for the technical 
careers of the future.
    I look forward to learning more from you about the 
President's R&D budget proposal and to working with you and 
members from both sides of the aisle to forge a productive path 
ahead.
    Thank you, and I yield back, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you Chairman Hall, and welcome back to the
    Committee, Dr. Holdren. We are in a very unusual situation today. 
We are here today to discuss the president's fiscal year 2012 budget 
request even as the fiscal year 2011 budget remains in play. So I hope 
we can keep the numbers and years straight. However, even if we jump 
back and forth in terms of what year we are talking about, the key 
issues that we need to address remain the same, how best to keep 
America competitive and create a better future for our children and 
grandchildren.
    With the CR the House is debating this week, I am afraid we are 
heading in the wrong direction. And I am worried for our country and 
for my own grandchildren and what kind of opportunities they will have 
in the future. As we focus on the need to create jobs both now and in 
the coming years, we need to make sure that we are taking the steps to 
ensure that we remain economically strong and competitive in a 
challenging international marketplace.
    This Committee has heard countless witnesses from industry, 
academia, and government over the past several years testify that 
investments in science, technology and STEM education must be a 
cornerstone of any serious long-term strategy to keep America 
competitive.
    While we also need to address tax and other policies that affect 
innovation, none of those policies will be of any use if we don't first 
invest in the human capital and the research that makes innovation 
possible.
    Let me be clear--while we debate turning the lights off on 
groundbreaking research projects, shuttering world-class research 
facilities, stopping emerging industries in their tracks, and losing 
many of our best and brightest scientists and innovators from the STEM 
pipeline for good, our competitors in China, India and elsewhere are 
surging ahead in their investments in R&D and in emerging industries. 
They are going to eat our lunch, and then our dinner and dessert too. 
Now is simply not the time to take a hatchet to federally funded R&D 
and STEM education.
    Having said that, I still find reason to be hopeful as we kick off 
today's hearing. Our federal R&D agencies have a long history of 
investing in research and education programs that return huge economic 
pay-offs to the American people. The fiscal year 2012 R&D budget 
proposal being presented to us today by Dr. Holdren reflects the 
imperative to invest in our future at the same it acknowledges the 
fiscal environment in which we find ourselves.
    Truthfully I would like to see more, including for NASA, for 
information technology research, and for programs that have 
demonstrated success in broadening the participation of women and 
underrepresented minorities in STEM. Instead the budget proposes to 
hold many of those programs flat once again. However, I also understand 
that the President had to make some very tough decisions in developing 
this year's budget request.
    We can disagree over some of the specific choices, but I believe, 
Dr. Holdren, that we share the same end goals of maintaining a strong 
national science and technology enterprise and ensuring our young 
people are prepared for the technical careers of the future. I look 
forward to learning more from you about the president's R&D budget 
proposal and to working with you and Members from both sides of the 
aisle to forge a productive path forward.

    Chairman Hall. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I will introduce--we will have the one witness 
and I will first thank you for our inability to begin as 
scheduled and hope we don't ruin the rest of your day here. Ms. 
Johnson says that is not what is going to ruin it. No matter 
what we say or do, we appreciate you, and if you really listen 
to us and obey us, why, we are really going to treat you good, 
and if you don't, we are going to treat you good, so there you 
go.
    At this time I would like to introduce our witness, and I 
am proud to introduce Dr. John Holdren as President Obama's 
Science Advisor, Director of the White House Office of Science 
and Technology Policy and Co-chair of the President's Council 
of Advisors on Science and Technology. Prior to joining the 
Administration, he taught at Harvard and was Director of the 
Woods Hole Research Center. As our witness should know and does 
know, spoken testimony is limited to five minutes, after which 
the members of the Committee will have five minutes each to ask 
questions, but we are able, particularly on days like this, to 
provide flexibility to you since you are the only witness and 
you have been so very patient. I recognize you, sir.

 STATEMENT OF DR. JOHN P. HOLDREN, ASSISTANT TO THE PRESIDENT 
   FOR SCIENCE AND TECHNOLOGY AND DIRECTOR OF THE OFFICE OF 
              SCIENCE AND TECHNOLOGY POLICY (OSTP)

    Dr. Holdren. Thank you very much, Chairman Hall, Ranking 
Member Johnson, Members of the Committee. It is a real 
privilege for me to be here today to discuss with you the 
civilian science and technology components of the President's 
FY 2012 budget.
    The premise behind this part of the budget is one that I 
believe we all share. It is that creating America's jobs and 
industries of the future, and indeed creating the quality of 
life that we all want for our children and grandchildren is 
going to require investing in the creativity and the capacity 
to innovate of the American people. The FY 2012 budget does so 
with responsible, targeted investments in the foundations of 
discovery and innovation, in R&D, in science, technology, 
engineering and math education, and 21st century 
infrastructure. It does it with increases in the highest-
priority focuses offset by reductions in lower-priority ones. 
It is a budget aimed at helping us win the future by out-
innovating, out-educating and out-building, the competition.
    Obviously, we need the continued support of the Congress to 
get it done, and I stress continued support because 
strengthening the national effort in science, technology, and 
innovation has been very much a joint effort of the Congress 
and the Administration over the past two years. We hope to 
extend that partnership in this new Congress.
    All told, this budget proposes $66.8 billion for civilian 
research and development, an increase of $4.1 billion, or 61/2 
percent, over the 2010 appropriated level in this category. But 
the Administration is committed to reducing the deficit even as 
we prime the pump of discovery and innovation. Accordingly, our 
proposed investments in R&D, STEM education, and infrastructure 
fit within an overall non-security discretionary budget that 
would be frozen at 2010 levels for the second year in a row. 
The budget reflects strategic decisions to focus resources on 
those areas where the payoff for the American people is likely 
to be highest.
    Mr. Chairman, I know the Committee is already familiar with 
the details of the Administration's FY 2012 proposed budget. 
Let me therefore only very briefly highlight a few key points.
    First of all, consistent with the America COMPETES 
Reauthorization Act, which was passed in December with 
leadership from this Committee and signed by the President in 
January, the budget calls for continuing along the doubling 
trajectory for the National Science Foundation, the Department 
of Energy's Office of Science, and the National Institute of 
Standards of Technology laboratories.
    In the case of NASA, the President's budget holds that 
agency to the 2010 appropriated level of $18.7 billion while 
still funding every initiative called for in the 2010 NASA 
Authorization Act. The President's budget also helps the 
National Oceanic and Atmospheric Administration improve 
critical weather and climate services, invest more heavily in 
restoring our oceans and coasts and ensure continuity in 
crucial Earth observation satellite coverage.
    The budget reinforces the Department of Energy's work to 
make clean energy affordable and abundant with notable 
increases for ARPA-E, Energy Efficiency and Renewable Energy, 
and Electricity Delivery and Energy Reliability.
    To help the Nation win the future, the 2012 budget also 
emphasizes STEM education, in part by providing $100 million as 
a down payment on a ten-year effort to help prepare 100,000 
new, highly effective STEM teachers.
    Additionally, the budget includes investments for a 
Wireless Innovation and Infrastructure Initiative to help 
extend the next generation of wireless Internet to 98 percent 
of the United States population.
    Let me reiterate in closing the guiding principal 
underlying this budget: America's strength, prosperity, and 
global leadership depend directly on the investments we are 
willing to make in R&D, in STEM education and in 
infrastructure. Investments in these domains are the ultimate 
act of hope, the source of the most important legacy that we 
can leave. Only by sustaining those investments can we assure 
future generations of Americans a society and a place in the 
world worthy of the history of this great Nation which has been 
building its prosperity and its global leadership on a 
foundation of science, technology, and innovation since the 
days of Jefferson and Franklin. Staying the course in the 
current fiscal environment will not be easy but I believe the 
President's 2012 budget for science and technology provides a 
blueprint for doing so that is both visionary and responsible. 
The support of this Committee, which has been the source itself 
of so much visionary and also responsible legislation in this 
domain, will be essential if we are to stay the course.
    I look forward to working with you to that end, and I will 
be pleased to try to answer any questions the members may have. 
Thank you for your attention.
    [The prepared statement of Dr. Holdren follows:]

                 Prepared Statement of John P. Holdren

    Chairman Hall, Ranking Member Johnson, and Members of the 
Committee, It is my distinct privilege to be here with you today to 
discuss the civilian science and technology components of the 
President's fiscal year (FY) 2012 Budget.

Administration Initiatives in Education, Innovation, and Infrastructure

    President Obama, in his most recent State of the Union address, 
called on all of us to help create the American jobs and industries of 
the future by doing what this Nation does best--investing in the 
creativity and imagination of the American people. The President 
identified this time in history as our generation's Sputnik moment. And 
just as investments in science and engineering research and development 
(R&D) turned the original Sputnik moment into a Golden Age of American 
technological and economic dominance, so new investments in science, 
technology, and innovation (STI) will be the foundation for continued 
American leadership in the future. Targeted investments in the most 
promising frontiers of science, made in the context of responsible 
reductions in less productive endeavors, will fuel this trajectory and 
allow us, in the President's words, to ``out-innovate, out-educate, and 
out-build the rest of the world.''
    President Obama understands that our ability to meet the grand 
challenges before us is intimately dependent on robust research and 
development; superior science, technology, engineering, and mathematics 
(STEM) education; and 21st century transportation, telecommunications, 
and energy infrastructure. His 2012 Budget provides strategic 
investments in these domains while also streamlining aspects of the 
Federal government and responding responsibly to the deficit. At a 
difficult time in America's history, the President's 2012 Budget 
proposes to invest intelligently in innovation, education, and 
infrastructure today to generate the industries, jobs, and 
environmental and national security benefits of tomorrow. Obviously, we 
need the continued support of the Congress to get it done. I say 
``continued support'' because much of the President's Federal research 
and education investment portfolio enjoyed bipartisan support during 
the first two years of the Administration. And with the start of this 
new Congress, we hope to extend this partnership with both the Senate 
and the House across the entire science and technology portfolio. Such 
a collaboration to stimulate scientific discovery and new technologies 
will take America into this new century well-equipped for the 
challenges and opportunities that lie ahead.
    In the remainder of this testimony, I elaborate on the reasons the 
President and I are most hopeful you'll provide that support.

The Federal R&D Budget

    In his State of the Union address, the President said: ``The first 
step in winning the future is encouraging American innovation,'' and he 
promised to deliver a budget that would ensure the Nation's ability to 
achieve that goal. This week, the President released that budget. It 
proposes a record $66.8 billion investment in civilian research and 
development, an increase of $4.1 billion or 6.5 percent over the 2010 
funding level, reflecting the Administration's firm belief that 
investment in civilian research is a key ingredient for cultivating the 
innovation that is so important to growing the American economy of the 
future.
    (Because of the uncertainty around the outcome of 2011 
appropriations, all the comparisons in my testimony are between the 
2012 Budget and the enacted 2010 appropriations. My testimony discusses 
changes in current dollars, not adjusted for inflation. The latest 
economic projections show inflation of 2.7 percent between 2010 and 
2012 for the economy as a whole, using the GDP deflator.)
    These important R&D investments will bolster the fundamental 
understandings of matter, energy, and life that are at the root of much 
innovation, and they will foster significantly new and potentially 
transformative technologies in areas such as biotechnology, information 
technology, and clean energy.
    The Obama Administration's investments in innovation, education, 
and infrastructure fit within an overall non-security discretionary 
budget that would be frozen at 2010 levels for the second year in a row 
and would stay frozen to 2015. The Budget reflects strategic decisions 
to focus resources on those areas where the payoff for the American 
people is likely to be highest, while imposing hard-nosed fiscal 
discipline on areas lacking that kind of promise. For example, the 2012 
Budget proposes $79.4 billion for development within the Federal R&D 
portfolio--a decline compared to the 2010 funding level primarily 
because of reductions in development funding in the Department of 
Defense. Across government, important programs will have to make do 
with less, as noted in several of the program descriptions below. The 
total (defense and nondefense) R&D budget would be $147.9 billion, $772 
million or 0.5 percent above the 2010 enacted level. That modest 
increase is difficult to accept, of course, given the many needs that 
could potentially be addressed by an expanded Federal R&D portfolio. 
But the Administration is committed to making tough choices and it has 
made many such in this Budget.

Budgets of Science Agencies

    Three agencies have been identified as especially important to this 
Nation's continued economic leadership by the President's Plan for 
Science and Innovation, the America COMPETES Act, the Administration's 
Innovation Strategy, and the America COMPETES Reauthorization Act, 
passed by the Congress in December through the leadership of this 
Committee and signed by the President in January. Those three jewel-in-
the-crown agencies are the National Science Foundation, a primary 
source of funding for basic academic research; the Department of 
Energy's (DOE's) Office of Science, which leads fundamental research 
relevant to energy and also builds and operates the major research 
infrastructure--advanced light sources, accelerators, supercomputers, 
and facilities for making nano-materials--on which our scientists 
depend for energy research breakthroughs; and the National Institute of 
Standards and Technology laboratories, which support a wide range of 
pursuits from accelerating standards development for health information 
technology and ``smart grid'' technologies to conducting measurement 
science research to enable net-zero energy buildings and advanced 
manufacturing processes.
    In recognition of the immense leverage these three agencies offer 
and their key role in maintaining America's preeminence in the global 
marketplace, Congress and this Administration have worked together to 
put these agencies on a doubling trajectory. The FY2012 budget 
maintains that trajectory, as newly authorized in the America COMPETES 
Reauthorization Act (Public Law 111-358), with a 12.2 percent increase 
between 2010 and 2012 for their combined budgets, totaling $13.9 
billion. I want to emphasize that the proposed increases for these 
three agencies are part of a fiscally responsible budget focused on 
deficit reduction that holds overall non-security discretionary 
spending flat at 2010 levels for the second year in a row, meaning 
these increases are fully offset by cuts in other programs.
    I now turn to the budgets of individual agencies in a bit more 
detail. I will focus on the agencies under the jurisdiction of the 
Committee. Therefore, I will not provide details of the defense R&D 
portfolio (the Department of Defense and DOE's defense programs) or the 
budget of the National Institutes of Health (NIH).

National Science Foundation (NSF)
    The National Science Foundation (NSF) is the primary source of 
support for academic research for most non-biomedical disciplines, and 
it is the only Federal agency dedicated to the support of basic 
research and education across all fields of science and engineering. 
NSF has always believed that optimal use of federal funds relies on two 
conditions: ensuring that its research is aimed--and continuously re-
aimed--at the frontiers of understanding; and certifying that every 
dollar goes to competitive, merit-reviewed, and time-limited awards 
with clear criteria for success. When these two conditions are met, the 
nation gets the most intellectual and economic leverage from its 
research investments. In recognition of the time-proven truth that 
today's NSF grants are tomorrow's billion dollar, job-creating 
companies, the 2012 Budget request for NSF is $7.8 billion, an increase 
of 13.0 percent above the 2010 funding level. This keeps NSF on track 
to double its budget as promised in the President's Plan for Science 
and Innovation.
    NSF puts the greatest share of its resources in the nation's 
colleges and universities. Universities are the largest performers of 
basic research in the United States, conducting over fifty percent of 
all basic research. Basic research funding such as that provided by NSF 
is important not only because it leads to new knowledge and 
applications but also because it trains the researchers and the 
technical workforce of the future, ensuring the Nation will benefit 
from a new generation of makers and doers. In order to maximize this 
dual benefit to society and NSF's special contribution, the 2012 Budget 
sustains the doubling of new NSF Graduate Research Fellowships to 
support 2,000 new awards. The 2012 Budget also includes $64 million for 
the Advanced Technological Education (ATE) program to promote 
partnerships between higher-education institutions and employers to 
educate technicians for the high-technology fields that drive our 
nation's economy; ATE is the centerpiece of an overall $100 million NSF 
investment in community colleges, an important part of the higher 
education system.
    NSF also proposes to increase research funding to promote 
discoveries that can spark innovations for tomorrow's clean energy 
sources with a cross-disciplinary approach to sustainability science. 
The Science, Engineering, and Education for Sustainability (SEES) 
portfolio will increase to $998 million in the 2012 Budget for 
integrated activities involving energy and environment. NSF is also 
committed to enhancing U.S. economic competitiveness with Science and 
Engineering Beyond Moore's Law (SEBML), a multidisciplinary research 
program that aims to extend the technological and conceptual limits on 
computer processing, with an investment of $96 million in the 2012 
Budget. NSF is also investing $76 million in a multi-directorate 
initiative on research at the interface of the Biological, 
Mathematical, and Physical Sciences (BioMaPS) that aims for an 
accelerated understanding of biological systems and the opening of new 
frontiers in biotechnology. The Administration proposes $15 million in 
the 2012 Budget for NSF's contribution to a new interagency initiative 
called Enhancing Access to the Radio Spectrum, or EARS, to support 
research into new and innovative ways to use the radio spectrum more 
efficiently so that more applications and services used by individuals 
and businesses can occupy the limited amount of available spectrum.

National Aeronautics and Space Administration (NASA)
    This past October, the President signed the 2010 NASA Authorization 
Act (the ``Act'', Public Law 111-267), which stands as a statement of 
bipartisan agreement by Congress and the Administration regarding NASA 
and its many programs. NASA's programs not only support the grand and 
inspiring adventures of space exploration, scientific discovery, and 
aeronautical advancement, but also provide an indispensable platform 
for observing the Earth to ensure that we have the information we need 
to cope with weather-related and other environmental threats to human 
well-being. NASA programs also fuel new technology development and 
innovation and help launch new products, services, businesses, and jobs 
with enormous growth potential. The Act will further our joint goal of 
placing NASA's programs on a more stable footing and enhancing the 
long-term sustainability of these exciting endeavors as we chart a new 
path forward in space.
    The FY2012 NASA budget reaffirms the Administration's commitment to 
a bold and ambitious future for NASA. Every initiative called for in 
the Act is funded, including: a robust program of space science and 
Earth science, including a commitment to invest in new satellites and 
programs of Earth observation; a strong aeronautics research program; 
the Space Launch System (SLS) heavy-lift launch vehicle and Multi-
Purpose Crew Vehicle (MPCV) needed to support human spaceflight and 
exploration missions beyond Earth's orbit; a vigorous technology 
development program; extension of International Space Station (ISS) 
activities through at least 2020, coupled with a plan to use this 
orbiting outpost more effectively; and the development of private-
sector capabilities to transport cargo and crew into low Earth orbit, 
thus shortening the duration of our reliance solely on Russian launch 
vehicles for access to the ISS.
    Within the context of a difficult budget environment and the 
President's decision to freeze non-security discretionary spending at 
2010 levels for five years, NASA's budget remains at $18.7 billion in 
the 2012 Budget. This budget level demands difficult choices, and those 
choices were made while keeping in mind the priorities of the Act as 
well as the collective desire of the Congress and the Administration to 
have a balanced program of science, research, technology development, 
safe spaceflight operations, and exploration. One such difficult choice 
was limiting the budget for the James Webb Space Telescope, keeping the 
project funded at $375 million in 2012, to assure NASA the opportunity 
to begin work on new scientific opportunities identified in the 
National Academies' most recent decadal survey in astronomy and 
astrophysics. Similarly, the 2012 Budget reduces the planned increases 
in Earth-science research outlined in the 2011 Budget. The Budget 
demonstrates the President's continued commitment to our shared 
priorities even when difficult decisions are required, providing $1.8 
billion in FY2012 funding for the Space Launch System and $1.02 billion 
for the Multi-Purpose Crew Vehicle, thereby laying the critical 
foundation for these exploration programs. As NASA reported in January 
of this year, it is still in the process of shaping these efforts and 
will discuss them in more detail in a report to Congress this spring. 
Similarly, the Budget provides a solid foundation for the commercial 
crew and cargo transportation programs that are necessary to provide 
safe and cost-effective access to low Earth orbit, including sufficient 
support for the operations of the ISS.

Department of Commerce National Institute of Standards and Technology 
        (NIST)
    The hugely complex web of technology that keeps this Nation's 
equipment and economy running smoothly depends on largely invisible but 
critical support in the fields of measurement science and standards. 
The National Institute of Standards and Technology (NIST) laboratories 
stand at the core of this Nation's unparalleled capacity in these 
areas, helping ensure that America remains the world leader in 
measurement innovation and systems interoperability. Reflecting NIST's 
vital role in supporting the economy and infrastructure, the 2012 
Budget of $764 million for the Institute's intramural laboratories 
amounts to a 15.1 percent increase over the 2010 enacted level. That 
increase will support high-performance laboratory research and 
facilities for a diverse portfolio of investigations in areas germane 
to advanced manufacturing, health information technology, 
cybersecurity, interoperable smart grid, and clean energy. For NIST's 
extramural programs, the 2012 Budget requests $143 million for the 
Hollings Manufacturing Extension Partnership (MEP), an $18 million 
increase over the 2010 enacted level. The 2012 Budget also requests $75 
million for the Technology Innovation Program (TIP), a $5 million 
increase over 2010, and $12 million for the Advanced Manufacturing 
Technology Consortia program, a new public-private partnership that 
will develop road maps for research that will broadly benefit the 
Nation's industrial base. All of these NIST programs are important 
components of A Framework for American Manufacturing, a comprehensive 
strategy for supporting American manufacturers announced in December 
2009, and the Administration's revised Innovation Strategy released 
this month.

Department of Commerce National Oceanic and Atmospheric Administration 
        (NOAA)
    NOAA plays a vital role supporting research on the Earth's oceans, 
atmosphere, and marine habitats. The NOAA budget of $5.5 billion is an 
increase of $749 million over the 2010 enacted level. This will allow 
NOAA to strengthen the scientific basis for consequential environmental 
decision-making, improve critical weather and climate services that 
protect life and property, invest more heavily in restoring our oceans 
and coasts, take advantage of high-performance computing to manage 
weather and climate data, and ensure continuity in crucial Earth-
observation satellite coverage. The 2012 Budget proposes a 
restructuring of NOAA, including the creation of a Climate Service line 
office in NOAA that will focus on the delivery of climate services 
while sustaining research on oceans, atmosphere, and climate.
    NOAA satellite systems are critical for our Nation's ability to 
forecast severe weather, such as blizzards or hurricanes, and as such 
can save lives and property. Ensuring that we retain these capabilities 
remains a top priority in the 2012 Budget. The former National Polar-
orbiting Operational Environmental Satellite System (NPOESS) program 
had a troubled history, as illustrated by numerous Congressional 
hearings and GAO reports. Because of this, in early 2010 the 
Administration announced a significant restructuring of the program, 
and this plan was endorsed by Congress as part of the 2010 NASA 
Authorization Act (Section 727). This restructuring was accompanied by 
significant increases in NOAA's 2011 Budget request in order to 
expedite the launch schedule of these essential weather satellites and 
reduce the risks of a gap in forecasting data. However, because the 
current continuing resolution allows for only a fraction of the funding 
necessary in FY2011 to continue work on the instruments and spacecraft 
for the first of NOAA's satellites (the first Joint Polar Satellite 
System mission, or JPSS-1), work on the first JPSS satellite has been 
slowed down considerably. Under current funding scenarios, the JPSS-1 
mission could be delayed by up to two years, thus forcing the weather 
forecasting community to rely solely on satellites that will be 
operating well past their planned mission life. The 2012 Budget request 
provides $1.1 billion to continue the development of the Joint Polar 
Satellite System, a significant increase over the 2010 enacted level 
which reflects the need for NOAA to fully fund the acquisition of 
satellites for the afternoon orbit within its own budget. NOAA 
recognizes the magnitude of the requested investment for environmental 
operational satellites. However, given the impact of weather on society 
and the nation's economy, the ability to warn and protect our citizens 
from harm is well worth the cost.

Department of Energy (DOE)
    The Administration is directing Federal innovation incentives to 
one of the most important, job-creating, innovation-inspiring 
challenges of our time: making clean energy affordable and abundant. 
The DOE R&D portfolio is a key part of this effort, which is why DOE 
R&D increases to $13.0 billion in the 2012 Budget. This represents 
targeted growth of 19.9 percent and does not include DOE's non-R&D 
cleanup, weapons, and energy-deployment programs. The 2012 Budget also 
proposes significant resources for demonstration and deployment 
incentives as part of a comprehensive framework for moving the United 
States toward a clean-energy future. The Administration's clean-energy 
R&D priorities focus on developing cutting-edge technologies with real-
world applications to advance a clean-energy economy, increase energy 
efficiency in industry and manufacturing, reduce energy use in 
buildings, and reach the goal of having 1 million electric vehicles on 
the road by 2015. To help pay for these priorities, we are proposing to 
cut inefficient subsidies that we currently provide, unnecessarily, for 
fossil fuels.
    The 2012 Budget proposes $550 million in appropriations for the 
Advanced Research Projects Agency-Energy, or ARPA-E, and another $100 
million in mandatory funding under the Wireless Innovation Fund. The 
Budget will advance ARPA-E's portfolio of transformational energy 
research with real-world applications across areas ranging from grid 
technology and power electronics to batteries and energy storage. First 
funded as part of the American Recovery and Reinvestment Act (ARRA), 
ARPA-E is a signature component of the America COMPETES Act, which was 
recently reauthorized.
    The 2012 Budget also doubles the number of Energy Innovation Hubs 
to solve key challenges that require cross-cutting inputs from diverse 
disciplines. The three new Hubs will focus on Batteries and Energy 
Storage, Smart Grid Technology and Systems, and Critical Materials. Two 
weeks ago, the President visited the existing Energy Efficient Building 
System Design Hub, which will accelerate the development of innovative 
designs for cost-effective lighting, sunlight-responsive windows, and 
smart, thermodynamic heating and cooling systems, which together will 
help make America home to the most energy-efficient buildings in the 
world. The other two existing Hubs focus on Fuels from Sunlight and 
Modeling and Simulation for Nuclear Reactors.
    The Department of Energy's Office of Science pursues fundamental 
discoveries and supports major scientific research facilities that 
provide the foundation for long-term progress in economically 
significant domains such as nanotechnology, advanced materials, high-
end computing, energy supply and end-use efficiency, and climate 
change. The 2012 Budget of $5.4 billion, more than 10 percent above the 
2010 enacted level, increases funding for facilities and cutting-edge 
research geared toward addressing fundamental challenges in many areas 
including clean energy and climate change, as well as multi-scale 
carbon cycle research to underpin measurement, reporting, and 
verification of greenhouse gas emissions.
    Investments in DOE's clean-energy applied R&D programs target gains 
over the next several decades for reducing dependence on oil and 
accelerating the transition to a low-carbon economy. The President's 
2012 Budget increases investments in Energy Efficiency and Renewable 
Energy by more than 40 percent over the 2010 appropriation to a total 
of $3.2 billion. EERE supports important work in industrial 
productivity, R&D on advanced batteries for electric and hybrid 
vehicles, and building technology R&D to cut energy consumption. It 
also supports new deployment activities in these areas, including a 
$200 million competitive grant program to encourage electric vehicle 
(EV) readiness and a $100 million competitive ``Race to Green'' program 
to encourage state and local governments to streamline codes, 
regulations, and performance standards and make efficient building the 
norm. Strong support continues for carbon capture and storage options 
that can significantly reduce the cost of transitioning to a low-carbon 
economy. The Budget also increases investments by more than 40 percent 
over 2010 funding levels in R&D to modernize the electric grid, 
critical to enabling clean energy sources, by providing $238 million 
for Electricity Delivery and Energy Reliability.
    To help pay for these programs and align policies toward new clean 
energy technologies, the Budget proposes to repeal over $4 billion per 
year in inefficient fossil fuel subsidies. The Administration will 
continue to work in a bipartisan fashion to put in place market-based 
incentives to promote U.S. leadership in the clean-energy marketplace. 
Consistent with Administration policy to phase out inefficient fossil 
fuel subsidies, the Budget eliminates funding for R&D focused on 
increasing hydrocarbon production.

Environmental Protection Agency (EPA)
    The R&D portfolio of the Environmental Protection Agency (EPA) is 
$584 million in the 2012 Budget, a decline of $13 million or 2.2 
percent compared to the 2010 funding level. With this investment, EPA 
will focus on enhancing and strengthening the planning and delivery of 
science by restructuring its research and science programs to be more 
integrated and cross-disciplinary. This request supports high-priority 
research of national importance in such areas as endocrine disrupting 
chemicals, green chemistry, e-waste and e-design, green infrastructure, 
computational toxicology, air monitoring, drinking water, and STEM 
fellowships. In addition, by way of strategic redirections, EPA will 
significantly increase--by $25 million--its outreach to the broader 
scientific community through its Science to Achieve Results (STAR) 
program. This investment will bring innovative and sustainable 
solutions to 21st century environmental science challenges by engaging 
the academic research community.

United States Geological Survey (USGS)
    The total 2012 budget of the United States Geological Survey 
(USGS), Interior's lead science agency, is $1.1 billion or a $6 million 
increase from the 2010 enacted level. The Budget includes a total of 
$126 million in program increases, offsetting a total of $120 million 
in program reductions and savings, reflecting shifting priorities 
towards climate variability research and ecosystem restoration. There 
are significant decreases in minerals and water resources research as 
well as targeted increases, including $11 million to complete the 
network of climate science centers that will develop research-based 
decision support tools for use by Federal land managers. The 2012 
Budget also proposes an addition of $60 million over the 2010 level for 
Landsat operations and the development of a new operational Landsat 
satellite program, which will continue to collect remote sensing data 
that are invaluable for many purposes, including climate and land-use 
change research.

Department of Homeland Security (DHS)
    Department of Homeland Security (DHS) R&D totals $1.1 billion in 
the 2012 Budget, up $167 million or 18.8 percent from the 2010 enacted 
level. Within the DHS Science and Technology Directorate, the 2012 
Budget proposes $150 million to begin construction of the National Bio 
and Agro-defense Facility (NBAF), which will serve as a new, state-of-
the-art biosafety level 3&4 facility for the development of vaccines 
and anti-virals and enhanced diagnostic capabilities for protecting the 
United States against emerging agricultural diseases. The Budget also 
proposes $64 million for research to support the Comprehensive National 
Cybersecurity Initiative (CNCI), an increase of $22 million from the 
2010 enacted level.

Department of Transportation (DOT)
    The 2012 Budget provides $1.2 billion for Department of 
Transportation (DOT) R&D, an increase compared to the 2010 funding 
level. One significant part of DOT's R&D activities is the Federal 
Aviation Administration's (FAA) Research, Engineering, and Development 
program. The Budget includes funding for several R&D activities in 
FAA's Next Generation Air Transportation System, known as NextGen. The 
Joint Planning and Development Office coordinates this important effort 
with NASA and other participating agencies. The Federal Highway 
Administration (FHWA) also manages a comprehensive, nationally-
coordinated highway research and technology program, engaging and 
cooperating with other highway research stakeholders. FHWA performs 
research activities associated with safety, infrastructure preservation 
and improvements, and environmental mitigation and streamlining.

White House Office of Science and Technology Policy (OSTP)
    The 2012 Budget requests $6.65 million for White House Office of 
Science and Technology Policy (OSTP) operations, 5 percent below the 
2010 enacted funding level, in recognition of the need for shared 
sacrifice to freeze non-security discretionary spending. OSTP works 
with OMB to ensure that the President's S&T priorities are 
appropriately reflected in the budgets of all the executive branch 
departments and agencies with S&T and STEM-education missions. OSTP 
also provides science and technology advice and analysis in support of 
the activities of the other offices in the Executive Office of the 
President and supports me in my role as the Assistant to the President 
for Science and Technology, with the responsibility to provide the 
President with such information about science and technology issues as 
he may request in connection with the policy matters before him. In 
addition, OSTP coordinates interagency research initiatives through 
administration of the National Science and Technology Council (NSTC), 
serves as the lead White House office in a range of bilateral and 
multilateral S&T activities internationally, and provides 
administrative and technical support for the very active 21-member 
President's Council of Advisers on Science and Technology (PCAST). This 
work is accomplished with approximately 34 full-time equivalent staff 
supported by the OSTP appropriation, which includes the OSTP Director, 
four Associate Directors (for Science, Technology, Environment, and 
National Security and International Affairs), additional technical 
experts, and a small administrative function. In addition, there are 
approximately 40 scientific and technical experts detailed to OSTP from 
all across the executive branch along with approximately a dozen other 
experts brought in under the Intergovernmental Personnel Act or various 
fellowship arrangements. This mix of personnel allows OSTP to tap a 
wide range of expertise and leverage all available resources to ensure 
that the science and technology work of the Federal government is 
appropriately resourced, coordinated and leveraged.

Interagency Initiatives

    A number of priority interagency S&T initiatives are highlighted in 
the President's 2012 Budget. These initiatives are coordinated through 
the NSTC, which as noted above is administered by OSTP.

Networking and Information Technology R&D
    The multi-agency Networking and Information Technology Research and 
Development (NITRD) program plans and coordinates agency research 
efforts in cyber security, high-end computing systems, advanced 
networking, software development, high-confidence systems, information 
management, and other information technologies. The 2012 Budget 
provides $3.9 billion for NITRD, an increase of $74 million over the 
2010 funding level.
    Networking and computing capabilities are more critical than ever 
for a range of national priorities, including national and homeland 
security, reforming the health care system, understanding and 
responding to environmental stresses, increasing energy efficiencies 
and developing renewable energy sources, strengthening the security of 
our critical infrastructures including cyberspace, and revitalizing our 
educational system for the jobs of tomorrow. The 2012 Budget includes a 
focus on research to improve our ability to derive scientific insights 
and economic value from enormous quantities of data that heretofore 
would have been too large to take full advantage of, and continues to 
emphasize foundations for assured computing and secure hardware, 
software and network design, and engineering to address the goal of 
making Internet communications more secure and reliable.

National Nanotechnology Initiative
    The 2012 Budget provides $2.1 billion for the multi-agency National 
Nanotechnology Initiative (NNI), an increase of $201 million over the 
2010 funding level. Research and development in the NNI focuses on the 
development of materials, devices, and systems that exploit the 
fundamentally distinct properties of matter at the nanoscale. NNI-
supported R&D is enabling breakthroughs in disease detection and 
treatment, manufacturing at or near the nanoscale, environmental 
monitoring and protection, energy conversion and storage, and the 
design of novel electronic devices. In 2012, NNI agencies will be 
moving forward, using close and targeted program-level interagency 
collaboration, on three signature initiatives in areas ready for 
advances: Nanoelectronics for 2020 and Beyond; Sustainable 
Manufacturing-Creating the Industries of the Future; and Nanotechnology 
for Solar Energy Collection and Conversion.
    In addition, agencies continue to maintain a focus on developing 
nanotechnology responsibly with attention to potential human and 
environmental health impacts, as well as ethical, legal, and other 
societal issues. I will also add that within weeks, I will be 
submitting to the Committee a revised strategic plan for the NNI 
reflecting the changing opportunities for frontier research at the 
nanoscale.

U.S. Global Change Research Program
    The Budget includes an expanded commitment to global change 
research, with the understanding that insights derived today will pay 
off with interest in the years and decades ahead as our Nation works to 
limit and adapt to shifting environmental conditions. Investments in 
climate science over the past several decades have contributed 
enormously to our understanding of global climate. The trends in global 
climate are clear, as are their primary causes, and the investments in 
this research arena in the 2012 Budget are a critical part of the 
President's overall strategy to mitigate U.S. greenhouse-gas emissions 
and move toward a clean-energy economy even as we adapt to those 
changes that are inevitable. Specifically, the 2012 Budget provides 
$2.6 billion for the multi-agency U.S. Global Change Research Program 
(USGCRP)--an increase of 20.3 percent or $446 million over the 2010 
enacted level--to continue its important work of improving our ability 
to understand, predict, project, mitigate, and adapt to climate change.
    As you are no doubt aware, the USGCRP was mandated by Congress in 
the Global Change Research Act of 1990 (P.L. 101-606) to improve 
understanding of uncertainties in climate science, expand global 
observing systems, develop science-based resources to support 
policymaking and resource management, and communicate findings broadly 
among scientific and stakeholder communities. Thirteen departments and 
agencies participate in the USGCRP. OSTP and the Office of Management 
and Budget (OMB) work closely with the USGCRP to establish research 
priorities and funding plans to ensure the program is aligned with the 
Administration's priorities and reflects agency planning. In 2011, the 
USGCRP is undertaking a comprehensive process that will result in an 
updated strategic plan, which will be submitted to Congress later this 
year.
    Funding in the 2012 Budget will support an integrated and 
continuing National Climate Assessment of climate change science, 
impacts, vulnerabilities, and response strategies as mandated by 
Congress. The Budget also prioritizes an interagency research effort 
for measuring, reporting, and verifying greenhouse-gas emissions.

Innovation, Entrepreneurship, and Job Creation

    The President believes we must harness the power and potential of 
science, technology, and innovation to transform the Nation's economy 
and to improve the lives of all Americans. In addition to the 
investments in research and development (R&D) I have described, the 
President's 2012 Budget targets strategic investments to spur 
innovation in the public and private sectors and to maximize the impact 
of the Federal R&D investment for innovation. Earlier this month, the 
President released a revised Strategy for American Innovation, building 
on an earlier version released in September 2009. This strategy 
describes how investments in R&D work together with other Federal 
investments and policies to support American innovation. Let me share 
with you a few highlights that are reflected in the Budget.
    The Budget proposes a permanent extension of the research and 
experimentation (R&E) tax credit to spur private investment in R&D by 
providing certainty that the credit will be available for the duration 
of the R&D investment. In December, the President and Congress worked 
together to extend expiring tax breaks for Americans; as part of that 
agreement, the current R&E tax credit was extended through the end of 
this year. The 2012 Budget proposes to expand and simplify the credit 
as part of making it permanent.
    In addition, two weeks ago the Administration announced Startup 
America, a campaign to inspire and accelerate high-growth 
entrepreneurship throughout the Nation. This coordinated public/private 
effort brings together an alliance of the country's most innovative 
entrepreneurs, corporations, universities, foundations, and other 
leaders, working in concert with a wide range of Federal agencies to 
increase the prevalence and success of American entrepreneurs. A broad 
set of Federal agencies will launch a coordinated series of policies 
that ensure high-growth startups have unimpeded access to capital, 
expanded access to quality mentorship, an improved regulatory 
environment, and a rapid path to commercialization of federally-funded 
research.
    The 2012 Budget sustains the Administration's effort to promote 
regional innovation clusters as significant sources of 
entrepreneurship, innovation, and quality jobs. These efforts are 
taking place in several agencies working together, including the Small 
Business Administration (SBA), DOE, and especially the Economic 
Development Administration (EDA) within the Department of Commerce. EDA 
will be pursuing several programs in research parks, regional 
innovation clusters, and entrepreneurial innovation activities, as 
authorized recently in the America COMPETES Reauthorization Act. And as 
mentioned earlier, the 2012 Budget continues to increase funding for 
the Hollings Manufacturing Extension Partnership (MEP) in NIST to 
disseminate the latest advanced manufacturing techniques and innovative 
processes to small- and medium-sized manufacturers around the Nation. 
Taken together, these investments will help ensure that Federal 
investments in innovation, education, and infrastructure translate into 
commercial activity, real products, and jobs.

Science, Technology, Engineering, and Mathematics (STEM) Education

    In his State of the Union address, the President said: ``If we want 
innovation to produce jobs in America and not overseas, then we also 
have to win the race to educate our kids.'' To help win that race, the 
2012 Budget emphasizes science, technology, engineering, and 
mathematics (STEM) education, building on two strong years of progress. 
Through his past budget requests and actions--including his recent 
hosting of the first White House science fair, his launch of the 
``Educate to Innovate'' and ``Change the Equation'' initiatives, and 
his challenging the Nation's 200,000 Federal scientists and engineers 
to get more involved in STEM education--the President has shown that he 
is deeply committed to improving STEM education. These efforts have 
engaged not only the Federal government but also the private, 
philanthropic, and academic sectors. The Educate to Innovate campaign 
has resulted in over $700 million in financial and in-kind private-
sector support for STEM education programs. And the Change the Equation 
program has brought together over 100 corporations in a historic effort 
to scale up effective models for improving STEM education. The 
Administration has also integrated STEM education into broader 
education programs. For example, the Race to the Top competition 
provided a competitive advantage to states that committed to a 
comprehensive strategy to improve STEM education.
    Building on these efforts, the 2012 Budget proposes an investment 
of $100 million as a down payment on a 10-year effort to help prepare 
100,000 new highly effective STEM teachers. This coordinated effort 
between NSF and the Department of Education will help prepare teachers 
with both strong teaching skills and deep content knowledge. The 
Administration proposes $80 million for the Department of Education in 
the 2012 Budget to expand promising and effective models of teacher 
STEM preparation within the new Teacher and Leader Pathways program--
for example, ones that provide undergraduates with early and intensive 
field experience in the classroom along with extensive STEM subject 
coverage. At the same time, NSF proposes to launch a $20 million 
teacher-education research program called Teacher Learning for the 
Future. In cooperation with the Department of Education, this NSF 
program will fund research that will increase our understanding of what 
makes a great STEM teacher and how to best prepare, support, and retain 
highly effective STEM teachers in the most cost effective manner. The 
coordination of these two programs will ensure that there is continual 
innovation and improvement in teacher preparation that is grounded 
firmly in evidence.
    This is part of a broader Administration commitment to look 
carefully at the effectiveness of all STEM programs and find ways to 
improve them. To further this goal, in coming weeks I will establish a 
Committee on STEM Education under the National Science and Technology 
Council. The STEM Education Committee will be co-chaired by OSTP's 
Associate Director for Science, Carl Wieman, a Nobel Prize-winning 
physicist renowned for his work on improving STEM education, and will 
involve participation from the many Federal agencies involved in STEM 
education activities.
    The work of this Committee will be closely aligned with the vision 
for STEM education outlined by Congress in the America COMPETES 
Reauthorization Act and will focus on improving the coordination and 
effectiveness of all Federal STEM education programs. In this spirit, 
the Department of Education and NSF are leading an effort, with active 
OSTP participation, to increase the impact of the Federal STEM 
investments I've outlined above by (1) developing an aligned strategy 
that emphasizes key agency capacities; (2) clarifying evidence 
standards used to assess program impact; and (3) identifying the most 
promising STEM efforts for further validation, testing, and suitability 
for scaling up.
    All told, the 2012 Budget requests $3.4 billion for STEM education 
programs across the Federal government. This is $200 million lower than 
the 2010 funding level and reflects some difficult choices. However, we 
feel this budget is better focused on programs that will make an 
impact.
    OSTP looks forward to working with this Committee on our common 
vision of improving STEM education for all of America's students.

21st Century Infrastructure

    I've talked about innovation and education, and now I would like to 
talk briefly about the third step in winning the future: rebuilding 
America. In his State of the Union address, the President established a 
vision of rebuilding America for the 21st century. This vision is 
reflected in the 2012 Budget in investments that will not only rebuild 
the roads and bridges of the 20th century but will also help build the 
new infrastructure needed for America to remain competitive in this 
century.
    Within science and technology, the 2012 Budget proposes a Wireless 
Innovation and Infrastructure Initiative to help businesses extend the 
next generation of wireless coverage to 98 percent of the U.S. 
population. This Initiative will enable businesses to grow faster, 
students to learn more, and public safety officials to access state-of-
the-art, secure, nationwide, and interoperable mobile communications. 
It will also foster the conditions for the next generation of wireless 
technology, nearly doubling the amount of wireless spectrum for mobile 
broadband and providing critical support for R&D in wireless 
innovation. The Initiative builds upon the Presidential Memorandum on 
spectrum released last year, which proposes to reallocate a total of 
500 megahertz of Federal agency and commercial spectrum bands over the 
next ten years to increase the Nation's access to wireless broadband.
    As part of the Initiative, the 2012 Budget proposes the creation of 
a $3 billion Wireless Innovation (WIN) Fund to be funded out of 
receipts generated through electromagnetic-spectrum auctions. This Fund 
will advance our economic growth and competitiveness goals, supporting 
key technological developments that will enable and take advantage of 
the private sector's rollout of next-generation wireless services and 
pave the way for new technologies. The WIN Fund will support basic 
research, experimentation and testbeds, and applied development in a 
number of areas including public safety, education, energy, .health, 
transportation, and economic development.
    The 2012 Budget also proposes investments in novel, game-changing 
physical infrastructure systems including a national high-speed rail 
system, an improved civil aviation system taking advantage of the 
NextGen air-traffic-control innovations, and new standards for smart-
grid technologies.

Conclusion

    The investments in research and development, innovation, STEM 
education, and 21st century infrastructure proposed in the President's 
FY2012 Budget reflect his clear understanding of the critical 
importance of science and technology, STEM education, and 21st century 
infrastructure to the challenges the Nation faces. Recognizing the 
importance of responsibly reducing projected budget deficits and 
holding the line on government spending, the President has made 
difficult choices in order to maintain and in some cases increase 
critical investments that will pay off by generating the American jobs 
and industries of the future. Indeed, the science and technology 
investments in the 2012 Budget are essential to keep this country on a 
path to revitalized economic growth, real energy security, intelligent 
environmental stewardship, better health outcomes for more Americans at 
lower costs, strengthened national and homeland security, and 
continuing leadership in science and in space.
    As this Committee has long understood over the decades, the best 
environment for innovation in all technologies is a broad and balanced 
research program for all the sciences. Such a broad base of scientific 
research will provide the foundation for a cornucopia of 
multidisciplinary discoveries with unimagined benefits for our society. 
The truth is that this country's overall prosperity in the last half-
century is due in no small measure to America's ``innovation system''--
a three-way partnership among academia, industry, and government.
    One of President Obama's guiding principles is that America's 
present and future strength, prosperity, and global preeminence depend 
directly on fundamental research. Knowledge drives innovation, 
innovation drives productivity, and productivity drives America's 
economic growth. And so it logically follows that economic growth is a 
prerequisite for opportunity, and scientific research is a prerequisite 
for growth.
    That is why President Obama believes that leadership across the 
frontiers of scientific knowledge is not merely a cultural tradition of 
our nation--today it is an economic and national security imperative. 
This Administration will ensure that America remains at the epicenter 
of the ongoing revolution in scientific research and technological 
innovation that generates new knowledge, creates new jobs, and builds 
new industries.
    By sustaining our investments in fundamental research, we can 
ensure that America remains at the forefront of scientific capability, 
thereby enhancing our ability to shape and improve our Nation's future 
and that of the world around us.
    I look forward to working with this Committee to make the vision of 
the President's FY2012 Budget proposal a reality. I will be pleased to 
answer any questions the Members may have.

                     Biography for John P. Holdren

    DR. JOHN P. HOLDREN is Assistant to the President for Science and 
Technology, Co-Chair of the Presidents Council of Advisors on Science 
and Technology (PCAST), and Director of the Office of Science and 
Technology Policy in the Executive Office of the President of the 
United States. Prior to joining the Obama Administration, he was the 
Teresa and John Heinz Professor of Environmental Policy and Director of 
the Program on Science, Technology, and Public Policy at the Kennedy 
School of Government, as well as a professor in the Department of Earth 
and Planetary Sciences, at Harvard University. Concurrently, from 2002, 
he served as co-chair of the independent, bipartisan National 
Commission on Energy Policy; from 2005, as the Director of the Woods 
Hole Research Center; and, from 2008, as Guest Professor in the School 
of Public Policy and Management at Tsinghua University, Beijing, China.
    Dr. Holdren holds degrees in aerospace engineering and theoretical 
plasma physics from MIT (SB 1965, SM 1966) and Stanford (PhD 1970) and 
is the author of some 350 publications on global environmental change, 
energy technology and policy, nuclear arms control and 
nonproliferation, and science and technology policy. He is a member of 
the National Academy of Sciences, the National Academy of Engineering, 
the American Academy of Arts and Sciences, and the Council on Foreign 
relations, as well as a foreign member of the Royal Society of London. 
He is also a former President of the American Association for the 
Advancement of Science; former Chairman of the Federation of American 
Scientists; and one of the firstrecipients, in 1981, of a MacArthur 
Foundation Prize Fellowship. In 1995 he gave the Nobel Peace Prize 
acceptance lecture on behalf of the Pugwash Conferences on Science and 
World Affairs, an international arms-control and scientific-cooperation 
organization in which he held leadership positions from 1982 to 1997.
    From 1994 to 2001, Dr. Holdren served as a member of President 
Clinton's PCAST; from 1994through 2004 he chaired the Committee on 
International Security and Arms Control of the National Academy of 
Sciences; and from 1991 to 2005 he was a member of the Board of 
Directors of the John D. and Catherine T. MacArthur Foundation. Early 
in his career he held positions at the Lockheed Missiles and Space 
Company, the Lawrence Livermore National Laboratory, and the 
Environmental Quality Laboratory and Division of Humanities and Social 
Sciences at the California Institute of Technology. From 1973 until 
1996 he was the founding core faculty member and co-leader of the 
campus-wide, interdisciplinary, graduate-degreegrantingEnergy and 
Resources Group at the University of California, Berkeley.
    Among other distinctions, he has been the recipient of the Volvo 
International Environment Prize, the Kaul Foundation Prize for 
Excellence in Science, the Tyler Global Environment Prize, and the 
Heinz Prize in Public Policy. He holds three honorary doctorates.
    Holdren has been married for 44 years to Dr. Cheryl E. Holdren, a 
biologist; they have two grown children and five grandchildren ages 5 
to 19. He was born in Sewickley, Pennsylvania, and grew up in San 
Mateo, California, attending public schools there.

    Chairman Hall. Thank you, Dr. Holdren. I will recognize 
myself for the first five minutes and I will try to stay within 
the five minutes.
    EPA announced the endangerment findings on December 7, 
2009, at the beginning of the Copenhagen Climate Change 
Conference. I am sure you remember that, don't you, Doctor?
    Dr. Holdren. Yes.
    Chairman Hall. And I understand you as well as President 
Obama and other officials also attended. That finding was, so 
far as I know and believe, was the first time EPA had made a 
standalone declaration of a pollutant in advance of proposed 
regulations. I think that is true. Do you agree with that?
    Dr. Holdren. I am not sure, Mr. Chairman.
    Chairman Hall. Well, maybe I can help you. Maybe I can be 
of some benefit to you.
    And it is curious that the announcement was made during the 
Copenhagen Conference and touted there by Administration 
officials presumably to give the Administration more leverage 
in the international negotiations. What was your role in the 
endangerment finding discussions and decisions, particularly 
with respect to the timing of it?
    Dr. Holdren. Mr. Chairman, I did not have a role in the 
endangerment decision at all either in the internal 
deliberations at the EPA that led to reaching it or in the 
timing of the decision. That was not my domain.
    Chairman Hall. Who made that decision?
    Dr. Holdren. I assume the decision on the timing of the 
finding was that of the EPA Administrator, Lisa Jackson. I 
don't have any knowledge to the contrary.
    Chairman Hall. Okay. Then let me move on. The 
Administration has told us time and again of the calamities of 
climate change, and you know there are some differences of 
opinion there, and we have been told that it was based on bad 
science. We don't know who told us that but we are going to try 
to have them before us to ask them who told them that and then 
try to have them before us because if it is based on bad 
science, people are entitled to know it. If it is not based on 
bad science, people are entitled to know it. We are really just 
going to seek the truth, and I don't think anybody ought to 
object to that search because we are sure going to make it.
    In a recent interview, you had stated that Republicans 
needed to be educated on this issue. Maybe that was just 
something that our speechwriter put in there when they were mad 
at us like we say things to you that we try to impress upon you 
because you are in such a position to do so much for the states 
and the country and for the man that you report to. In recent 
interviews, you stated that we needed to be educated on the 
issue. I have to take issue with you on that a little bit. In 
August 2006, you knew I was going to ask you about the 
interview you had with BBC News, didn't you? You reportedly 
said that if the current pace of change continued, a 
catastrophic sea-level rise of 4 meters--that is 13 feet--was 
within the realm of possibility. While you were giving the 
interview, how sure were you about your prediction? As you 
know, the very next year the so-called gold standard of 
scientific consensus by global warming advocates projected that 
the oceans would rise between 7 and 23 inches, not 13 feet but 
less than 2 feet, between now and the year 2100. Let me ask you 
this: how sure was the scientific community of their 
prediction, in your opinion?
    Dr. Holdren. Well, there are actually a number of questions 
there but let me start with the most recent, the one of sea-
level rise. At the time there had been two referenced peer-
reviewed publications in the scientific literature that pointed 
out that twice in the last 19,000 years the rate of sea level 
went up as much as 3 to 5 meters per century under forcings, 
that is, influences, on the climate, natural ones in this case, 
that were in the same range or smaller than the forces that are 
now being imposed on the climate, we believe mainly by human 
activity. At that time, therefore, the view that a sea-level 
rise of as much as four meters, which was in the middle of the 
range of 3 to 5, was a reasonable statement based on what was 
in the peer-reviewed literature. Subsequently, newer analyses 
have reduced that figure somewhat but the upper end of the 
range remains in the domain of 1 to 2 meters over the century 
we are now in at worst.
    When the Intergovernmental Panel on Climate Change arrived 
at the estimate which you quoted, Mr. Chairman, they explicitly 
excluded, and they said so in a footnote, the dynamic processes 
which led in the past to these more rapid increases in sea 
level and they said they were leaving those out because they 
didn't believe that the scientific basis for modeling them 
quantitatively was yet adequate to support a particular number. 
Since that time--that was the 2007 report of the IPCC, whose 
scientific inputs were finalized in December 2005. since that 
time, there have been extensive new analyses which have 
supported the proposition that the sea-level rise in this 
century could be in the range of 1 to as much as even 2 meters. 
That is not a particular prediction. The range of uncertainty 
is large. But even half a meter would be an extremely 
consequential matter for people and businesses with oceanfront 
property.
    Chairman Hall. There were a number of so-called scientific 
consensuses stated, yours among several others, and some to the 
effect that the science is not good, not based on good science. 
I know you have heard that. I have heard it. I want to know who 
said it, who told them that, and what their background was.
    Your projection of potential sea-level rise was over 11 
feet higher than even the worst-case scenario projected by your 
colleagues less than a year ago so there is more than just a 
few of us Republicans that need to be educated on the issue. 
Given the disparity of these projections, why should the 
American taxpayer have confidence in the Administration's 
assurance of the global calamities to come or trust your 
climate change education campaign? That ought to roll you one 
that you might knock out of the park.
    Dr. Holdren. Well, let me say first of all, Mr. Chairman, I 
want to clarify that in the interview you mentioned, I was not 
asked about Republicans as a whole, I was asked what do you 
plan to do in relation to those Members of Congress who believe 
that climate change is not a fact, is not real, and I said in 
relation to that particular question that I thought this was a 
matter of education because the scientific facts on the reality 
of climate change are very robust indeed.
    Every major national academy of sciences in the world and 
virtually all of the major professional societies that deal 
with the relevant disciplines have issued statements saying 
that the evidence for climate change outside the realm of 
natural variability is overwhelming, that we have very strong 
reason to believe that human activity is responsible for a 
large part of this change, that harm is already occurring from 
these changes, and that the harm will grow unless and until we 
stabilize and begin to reduce our emissions. This is not the 
view of a few isolated scientists. This is the overwhelming 
view of scientists who study this matter around the world.
    You will be able to produce on the witness stand a few who 
will say they don't believe it but they are very much in the 
minority. You could also produce people on this witness stand 
who will say, with Ph.D.'s attached to their name, that they 
don't believe cigarette smoking increases the risk of lung 
cancer. There are always skeptics, there are always heretics. 
That is in the nature of science. But public policy, in my 
judgment, should be based on the mainstream view because to 
base it otherwise is to risk the well-being of the public 
against very long odds.
    Chairman Hall. Well, up to this time and for the past two 
years, say we have six or eight to testify such as you are 
testifying, so-called experts, five or six of them believed it 
was good science, maybe two of them--and we had no choice on 
who to bring. We now have a choice and we asked for you first, 
and I thank you for your kindness.
    Dr. Holdren. I am happy to be here.
    Chairman Hall. My time is expired. I recognize Ms. Johnson. 
Ms. Johnson, you have five minutes, and I used about eight, so 
I will pay you back.
    Ms. Johnson. Okay. Thank you very much.
    Dr. Holdren, I have looked at the President's budget, and 
though I am disappointed, it does look better than what we are 
dealing with here now, but I did notice that the proposed STEM 
programs have been cut some, and I also would like to speak a 
bit about the coordination of the various programs between the 
Department of Education as it relates to STEM. I know there has 
been some major effort to coordinate. Give me a little update 
of where you are and how you think we are better utilizing the 
money.
    Dr. Holdren. Well, Ranking Member Johnson, let me start by 
saying we are doing a lot of work to coordinate the efforts in 
education across the different federal agencies that have 
activities in this domain. I and OSTP, Melody Barnes, who 
chairs the Domestic Policy Council and has wider 
responsibilities for education in the White House, and 
Education Secretary Arne Duncan, all work very closely together 
on this to coordinate these activities and we work as well with 
the Department of Energy, with NASA, with the National Science 
Foundation and with other agencies. Even the Department of 
Defense has activities related to STEM education. We work with 
them as well. We think we have succeeded in bringing the 
parties together, focusing on the magnitude of the challenge, 
figuring out how to use our resources in complementary ways 
across those different agencies. This has led to identification 
of some savings that are reflected in the budget.
    I would also say, though, in relation to the budget, and in 
particular the NSF part of the budget, that a great deal of the 
STEM education activity in the National Science Foundation 
actually goes in the various research directorates as a part of 
their activities without the word ``education'' appearing in 
the budget line because in the research directorates a great 
many of the grant programs actually require that educational 
activities be part of the activity of the researchers who 
receive the grant, and those kinds of activity have been 
increasing and we believe they are very effective.
    Ms. Johnson. Now, just looking at the Continuing 
Resolution, there are really very deep cuts toward the 
hispanic-serving institutions like 78 percent, a third of the 
historically black colleges and a third or more of the tribal 
colleges. But what really gets my attention as well is that $1 
billion was cut from Head Start, and which means then it makes 
it more difficult to implement STEM courses because most of the 
kids that really need this orientation by a greater 
percentage--all of them need it but by a greater percentage--
are Head Start-eligible children, and I wonder what kind of 
review has been given to these potential cuts? And I ask that 
because our U.S. companies or CEOs that we have had before this 
Committee have said that if we don't focus on the skilled labor 
and better education, that our companies would leave this 
country, and we are already behind now so I am wondering how do 
we move forward to try to maintain some competitive edge with 
all of these potential cuts?
    Dr. Holdren. Well, I would have to say that the process of 
analyzing the impact of the cuts in the Continuing Resolution 
has only begun, and I don't have available to me detailed 
analyses, but looking at the magnitude of those cuts, it is 
clear that they would be devastating to many of the activities 
in support of STEM education, in support of R&D, in support of 
catalyzing innovation that the Administration believes and I 
think many on this Committee believe this country is going to 
need if it is to succeed in maintaining its leadership position 
in the world in innovation, its competitiveness, if it is going 
to succeed in creating the products and industries and jobs of 
the future.
    I do know of an analysis of what the C.R.'s cuts in the 
National Science Foundation would do. The estimate is that 
versus the 2010 enacted level, the NSF in its research 
directorates would make 500 fewer awards supporting 5,500 fewer 
people, that in the education and human resources directorate 
they would make 235 fewer awards and 4,400 people would be 
supported, in total 10,000 fewer people supported by NSF in 
these domains, which are in our view so critical to maintaining 
our competitiveness, to maintaining the technological savvy of 
our workforce, to maintaining the scientific savvy of our 
voters.
    Ms. Johnson. Thank you. One last question. In NASA, for the 
fiscal year 2012, your request includes a five-year runout that 
shows a flat budget of $18.7 billion per year while the federal 
budget requests $18 billion, and only increasing slightly again 
in fiscal years 2015 and 2016. Why is the agency showing a 
different runout than the federal budget, and what version is 
correct?
    Dr. Holdren. My understanding, Congresswoman Johnson, 
Ranking Member Johnson, is that the out-year budgets are only 
notional at this point and I think the differences is between 
what NASA did and what the OMB put out probably mainly reflect 
the last-minute character, which also attends the preparation 
of these numbers, but they are only notional at this point, and 
I think the out-year numbers simply should not be taken that 
seriously at this particular moment.
    As you know, the President is committed to freezing non-
security discretionary spending over a period of five years as 
a whole, and I think the numbers which are in that ballpark in 
both cases simply reflect that commitment on an agency-by-
agency basis.
    Ms. Johnson. Thank you very much.
    Chairman Hall. Thank you, Ms. Johnson.
    The Chair recognizes Dr. Broun, chairman of the 
Investigations and Oversight Subcommittee, for five minutes.
    Dr. Broun. Thank you, Mr. Chairman.
    Dr. Holdren, at his Inauguration the President promised to 
``restore science to its rightful place.'' As a physician and 
an applied scientist, I applaud that promise. Since then, a 
number of actions taken by this Administration or inactions 
such as the handling of the Gulf oil spill and its decision on 
Yucca Mountain make me question that goal.
    Dr. Holdren, I have a number of questions related to that 
notion of scientific integrity. When did the President ask you 
to deliver scientific integrity recommendations?
    Dr. Holdren. As you know, Congressman Broun, the President 
on March 9, 2009, issued a Presidential Memorandum on 
Scientific Integrity in which he asked me to deliver guidelines 
that would elaborate on those recommendations in 120 days, and 
as you know, I missed that deadline by a very large margin. We 
discussed that, you and I, at a previous hearing.
    Dr. Broun. When did OSTP have that draft ready?
    Dr. Holdren. The guidelines were released on December 17th 
of last year after going through many, many drafts and much 
discussion among agencies and within the different offices in 
the White House.
    Dr. Broun. What prevented the release of those guidelines 
from the point that you developed your OSTP draft to the final 
delivery of them?
    Dr. Holdren. As I said, Congressman, there were many, many 
drafts of those guidelines, and what took so long was the 
complexity of the task of developing guidelines that were both 
specific enough to add significant value to what the President 
had already promulgated on March 9, 2009, and at the same time 
would be general enough to be applicable across all the 
departments and agencies and offices that deal with science and 
technology matters. That proved to be a much more demanding 
task than any of us thought at the outset, and it involved a 
great deal of debate with virtually every department, agency 
and office with a stake in this matter. Getting it right took 
us a long time, for which I have abundantly apologized.
    Dr. Broun. Whose job is it to bring about that process?
    Dr. Holdren. My job, sir.
    Dr. Broun. Okay. Thank you. Would you characterize these 
recommendations as guidelines or orders?
    Dr. Holdren. They are guidelines in the sense that we 
encourage the departments and agencies to build on them, and 
where possible even to strengthen them.
    Dr. Broun. Okay. Are there any recommendations for 
Presidential action on these guidelines?
    Dr. Holdren. I think the action continues to remain with 
the departments and agencies and with me. The departments and 
agencies have been asked to respond to the guidelines by 
producing within 120 days of my issuing the guidelines their 
own detailed policies department by department and agency by 
agency which would reflect those guidelines but again would 
elaborate on them further in the context of the particular 
responsibilities, functions and constraints that exist within 
those departments and agencies.
    Dr. Broun. Very good, sir. Did you direct these agencies to 
implement these policies or did you simply say that they 
should?
    Dr. Holdren. They are directed to implement them, and I 
would emphasize that the President was clear in his memorandum 
of March 9, 2009, that the principles embodied in that 
memorandum were effective as of the time that they were issued 
and I made sure departments and agencies understood that as 
well.
    Dr. Broun. Okay. What deadlines do the agencies have to 
implement these guidelines?
    Dr. Holdren. There is no specific deadline, I think, other 
than the timeline that they are expected to produce drafts of 
their policies in the next 120 days, and as we get those, we 
will determine what we are going to ask of them going forward.
    Dr. Broun. Where are we in that process of the 120 days? 
What is the timeline?
    Dr. Holdren. Well, I issued the guidelines on December 
17th. A hundred and twenty days obviously would be four months 
from then, so one has got January, February, March, April would 
be the time we would expect those draft policies to be 
delivered, and I should say that two agencies have delivered 
theirs already.
    Dr. Broun. Very good. And I hope the Committee gets those 
policies. Are these new guidelines going to be written down so 
that we can--everybody in America can see these?
    Dr. Holdren. Oh, absolutely. I mean, number one, the 
President's memorandum is a public document. My guidelines of 
December 17th are a public document and the policies of the 
offices, agencies and departments will be public documents.
    Dr. Broun. Very good. I look forward to those.
    Mr. Chairman, my time has run out. I have got a couple more 
questions that I would like to give the good doctor, and I 
assume that we can get a written response. Thank you so much. I 
yield back.
    Chairman Hall. Thank you.
    The Chair recognizes Ms. Lofgren, the gentlelady from 
California, for five minutes.
    Ms. Lofgren. Thank you very much, Mr. Chairman, and Dr. 
Holdren, it is delightful to see you here. I am glad to be back 
to the Science Committee after several years deployment to the 
Homeland Security Committee and to get back to these issues 
which I love.
    I live in Silicon Valley, and I know that if we want 
prosperity in this country, we have got to double-down our 
investments on science and technology, so there is much in this 
proposed budget that is to like. I do have--I just want to make 
a stray comment. You know, being from Silicon Valley, we are 
near Stanford, and Steve Schneider along with Jim Prall did 
issue a paper last year in the proceedings of the National 
Academy of Science where they assessed what the climate 
scientists, active climate scientists were saying, and found 
that 97 percent of active climate scientists had reached the 
certain conclusion that climate change is occurring and that 
humans are the cause of it, so I think that issue is settled, 
and how we respond of course is the big question for us.
    As the Science Advisor to the President and Co-Chair of 
PCAST, you are in a wonderful position to provide advice not 
just on the purely science issues but a whole variety of things 
that touch on the future and so I want to ask, and you may not 
know the answer to this but I hope that you will take it up. 
Renewable energy is a big part of what we need to do in this 
country both for our economy but also for the climate change 
challenge that we face, and in San Jose I have very many solar 
energy and alternative energy companies, and one of the things 
that was hugely helpful to them was the Renewable Energy Grant 
Program established in the Recovery Act. Now, I see that the 
proposal is to extend it just through 2012, and that is good, 
but I am wondering, could you advise the President or OMB or 
whoever is making these decisions that a longer extension would 
be much more helpful to these energy companies that are trying 
to make some plans? And they are going to get there without 
these grants and credits but they are at an embryonic stage 
right now. Would that be a fair thing to ask you, Doctor?
    Dr. Holdren. Yes. Let me make a couple of comments on that. 
Certainly, all of these incentives, encouragements, and grants 
are going to be reviewed going forward to see which ones we 
actually need in order to encourage the development and 
deployment of the relevant energy sources. As you know, we have 
moved in what we are recommending from a renewable energy 
standard to a clean energy standard which embraces, in addition 
to the renewables, cleaner coal technologies, nuclear energy 
technologies, and with partial credit for reduced greenhouse 
gas emissions, natural gas. We think we are going to need all 
of those, and we want our policies going forward to reflect a 
balanced approach that encourages all of the cleaner energy 
sources that we are going to need to address the whole array of 
energy challenges we face, and those include staying 
competitive in the global energy technology market. They 
include creating high-quality jobs that will stay in America. 
They include reducing conventional air pollutants and they 
include reducing our dependence on imported oil, and they also 
of course include reducing our contribution to the dangers from 
climate change.
    Ms. Lofgren. Could I ask, I noticed that there was a 
substantial downward slope on the fusion energy science, and I 
have been talking to the Department and I think I understand 
the reason why, and I don't think I want to get more 
information on that but I want to make sure that we are 
adequately supporting the analysis at NIF because we are at a 
crucial stage there. We have invested a huge amount of money 
with bipartisan support over many, many years and I just want 
to make sure that we are adequately supporting the analysis 
that is going on right now. Do you think that we are, and do we 
need to discuss that further?
    Dr. Holdren. I think we are. This is something that 
Secretary Chu is knowledgeable about and looking at. There are 
some benefits to having a Nobel laureate in physics as the 
Secretary of Energy.
    Ms. Lofgren. Right. He is terrific.
    Dr. Holdren. I am looking at it. My Associate Director for 
Science, Carl Wieman, who also has a Nobel Prize in physics, is 
looking at that, among other large science and research and 
development projects in the portfolio. So yes, I think we are 
doing what we need to do in that domain.
    You mentioned the decrease in funding for fusion overall. 
As you know, fusion is a very long-term energy project, not 
likely to succeed in delivering electricity to the grid much 
before the middle of the century, but we do very much need 
things that we can do for an encore after the middle of this 
century and so it is not our intention to starve fusion. The 
size of the budget relates to, among other things, what our 
partners are doing, where the program is at the moment and what 
it will take to move it forward.
    Ms. Lofgren. Thank you very much, Dr. Holdren. I see that 
my time is expired, and I thank the chairman for recognizing 
me.
    Chairman Hall. And I thank you, and welcome you back to the 
Committee. You have always been a good member of this 
Committee.
    The chairman recognizes the gentleman from Tennessee, Mr. 
Fleischmann, for five minutes. We have all taken seven minutes 
so I might as well recognize you for seven minutes.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Dr. Holdren, thank you for coming today. I represent the 
third district of Tennessee, which includes Oak Ridge, ORNL, of 
course, Y-12 and the cleanup and reclamation mission at ETTP, 
and since my short tenure as a Congressman, I am immersed in 
energy issues so I thank you for being here today. I have a few 
questions.
    Doctor, in your testimony you discuss how the investment in 
research and development by this White House will help keep 
America competitive. However, there are many other factors that 
can play into our competitiveness in the world. How is the 
Administration actively working to identify any U.S. policies 
or regulations that act as barriers to trade and investment in 
the United States? And further, are there any particular laws 
or regulations that act as barriers to trade and investment in 
the United States? I am sorry. Are there any particular laws or 
regulations that you have identified as increasing the cost for 
U.S. business compared to foreign competitors or forcing 
businesses to want to locate overseas?
    Dr. Holdren. Thank you, Congressman, for that very good 
question. We are addressing that in a number of domains. First 
of all, as you know, I am sure, Cass Sunstein, the Director of 
the Office of Information and Regulatory Affairs in OMB, has 
the mandate from the President to review the whole array of 
regulations that exist in this country looking for ones that 
may no longer be needed, that are not effective, that are too 
costly, that are inhibiting us in the various goals that we 
need to reach. You are probably also aware that there is a 
review underway of export controls, which we expect to yield a 
report soon and recommendations for reforming our pattern of 
export controls in a manner that will make U.S. companies able 
to be more active in a variety of dimensions of international 
trade.
    You mentioned that there are a lot of ways to encourage 
innovation, and we are very much aware that most of the 
innovation that this country needs will come from the private 
sector. We are very much aware that, for example, making an 
expanded research and experimentation tax credit permanent 
would be a great benefit in terms of the certainty available to 
our companies, large and small, as they plan their R&D 
expenditures going forward. We want to get that done. It is 
proposed again in this year's budget.
    I know that, responding more specifically to your question 
about particular regulations, that there will be some 
announcements forthcoming soon on that particular front but I 
don't want to jump the gun.
    Mr. Fleischmann. Yes, sir. Dr. Holdren, in 2008, the United 
States trade deficit in high-technology products was $55.5 
billion, up from $16.6 billion in 2002. The U.S. trade balance 
in high-technology products was last in surplus in 2001. A 
portion of this deficit from U.S. companies that manufacture 
overseas and bring the products back to the United States, even 
if we invest more in research and development programs and 
attract more professionals into high-technology fields, how do 
we discourage companies from taking production out of the 
United States?
    Dr. Holdren. I think one of the key elements there actually 
comes back to this domain of science, technology, engineering, 
and math education. We need to create a workforce in this 
country that has the skills and the capabilities that make it 
attractive for U.S. firms to hire American workers and to stay 
in America in order to be able to hire them and bring them on 
board. That may be the single most important thing we can do, 
lifting the capabilities of our workforce to keep American 
companies here. America has always competed on the skills of 
our workers and our capacities to innovate, our capacities to 
deploy better technologies for manufacturing, to develop better 
products. We need to revisit those sources of our strength 
because we are never going to compete--at least not for a very 
long time, we are not going to compete with China on the cost 
of our labor. We are not going to compete with Malaysia and 
Indonesia on the cost of our labor or even with Brazil but we 
can and we must compete with them with a higher quality 
workforce, a more skilled workforce, a more technology-savvy 
workforce, and with continuing innovation that makes our 
manufacturing technologies better than those our competitors, 
that makes the products we are producing better than those of 
our competitors so that we will have those high-quality jobs 
that stay in this country.
    Mr. Fleischmann. Thank you, Doctor.
    I yield back, Mr. Chairman.
    Chairman Hall. Thank you.
    At this time I recognize Mr. Miller, who is the ranking 
member on the Energy Subcommittee. Mr. Miller, you have seven 
minutes, sir.
    Mr. Miller. Thank you, Mr. Chairman.
    Chairman Hall. You can give us back two if you want to.
    Mr. Miller. There is a remote possibility that could 
happen.
    Dr. Holdren, there has been a great deal of attention to 
the issue of critical supplies of rare earths in the media. It 
was also a subject of interest to this Committee in the last 
Congress. There was a hearing in the Investigations and 
Oversight Subcommittee, which I chaired, on that topic and on 
our domestic supply of rare earths. Our subcommittee developed 
legislation which Kathy Dahlkemper, who was vice chair of the 
committee, introduced that did pass the House. It went to the 
Senate, where bills go to die, and sure enough, it did. But I 
understand that--well, I am preparing legislation at this time 
and I know that others are as well.
    What we found is that it is not an issue that fits neatly 
within the jurisdiction of any of the federal departments. It 
kind of crosses boundaries, which is also true of the 
committees of Congress. It doesn't fit neatly within the 
jurisdiction. It does cross boundaries. I understand that OSTP 
has an ad hoc committee working on the issue of critical and 
strategic materials. Can you kind of tell us about that ad hoc 
committee? Is it a formal committee? What is the status and 
what is that committee doing?
    Dr. Holdren. Yes, we have had an interagency policy 
committee that is chaired by Dr. Cyrus Wadia in my office that 
has been operating since last March on the issue of rare earths 
in particular, and that committee has included representation 
from the National Security staff, from the Department of 
Defense, the Department of Commerce, the Department of the 
Treasury and so on working toward developing solutions to the 
current degree of overdependence on China for our supplies of 
rare earth metals, which are needed for our defense 
technologies, for our information technologies, for a number of 
our clean energy technologies, so these are--these rare earth 
minerals are crucial to us and currently 95 percent of the 
world's supply is being produced in China. That is not, by the 
way, a result of the concentration of all of the resources in 
China. The resources are more widely distributed. We have 
considerable resources of these rare earth minerals in the 
United States. We have--there are considerable resources in 
Australia and elsewhere.
    The problem is that we have allowed the supply chains for 
these materials to migrate to China, again on grounds of 
economics, of low cost. We are obviously in the process of 
reconsidering the wisdom of having allowed that to happen. 
There are activities in the United States and Australia to 
restore rare earth mining and processing operations to 
diversify the supply from what it is now. We are also going to 
be standing up, in all likelihood, a subcommittee of the 
National Science and Technology Council to look at the science 
and technology dimensions of strategic mineral issues more 
broadly than just the rare earths. As you probably know, the 
National Science and Technology Council is a body that is 
nominally chaired by the President and populated by Cabinet 
secretaries. In practice, it is chaired by me and populated by 
deputy secretaries and under secretaries and administrators of 
NASA, of NSF, NOAA and so on, and its purpose is to address 
science and technology issues that cross over the boundaries 
that affect the interests of multiple departments and agencies. 
So we are on the case.
    Mr. Miller. I would like to use my remaining time to 
discuss climate change research. You have said earlier in 
testimony, you have said today that there is substantial 
agreement among scientists that climate change is occurring and 
that human activity is contributing substantially to it but 
there is some uncertainty about exactly how quickly it will 
happen and how dire it will be, and to use the phrase that an 
economist would use, there is a baseline scenario which is very 
bad and an adverse scenario that is cataclysmic. And we have 
heard testimony in the last four years from scientists who have 
said that yes, there is uncertainty but almost all the 
uncertainty is on much quicker, more sudden and more 
cataclysmic change, and they may be, as you said earlier, 
events that we cannot foresee or model. One that I recall is 
the possibility that there could be millions of tons of 
methane, which has much more of a greenhouse effect than 
CO<INF>2</INF>, released if the permafrost in the Arctic thaws.
    But despite feeling pretty confident that it is happening, 
you want to do more research. The Obama Administration has 
recommended doing more research. Others who criticize climate 
change research want to do less. They want to cut the funding 
for NASA, NOAA, and EPA. Are you proposing the research just to 
prove that you are right or is there something we will do with 
that research? What are the consequences of not proceeding with 
the research into climate change?
    Dr. Holdren. Well, first of all, I would say that, as I 
have noted before, while the core understandings from climate 
science are that the climate is changing in unusual ways, that 
humans and responsible for a large part of that and it is 
already doing a variety of kinds of harm, there is a tremendous 
amount of detail that we do not yet understand. We don't 
understand enough about the regional patterns of climate change 
as they are likely to emerge. As you know, climate is a 
complicated business, even without any human interference in 
it, and if we want to be able to adapt to climate change, the 
degree of climate change we are no longer able to avoid, we 
have to be able to tell farmers and fisherman and foresters and 
homeowners what is going to happen where they live -- 
developing that sort of understanding of how climate is 
changing in particular places, which places are going to get 
wetter, which places are going to get drier, which places are 
going to get stormier, how fast are those things going to 
happen, which places are going to be experiencing more 
wildfires. We have come to understand that climate change is a 
challenge not just in terms of how we mitigate it, what we can 
do to reduce the pace and the magnitude of climate change 
through changes in energy policy and land-use policy and so on, 
but we really do need the detailed knowledge that will enable 
firms and individuals to adapt. That is one of the great 
challenges in climate change research.
    We need of course, to continue the observation networks 
that in addition to telling us about climate tell us when 
particular storms are coming. We have a whole set of challenges 
in our earth observation satellites which in many cases are 
dual-purpose satellites. They are both monitoring variables 
related to climate but they are also telling us when powerful 
storms are coming and who they are going to hit.
    Mr. Miller. Dr. Holdren, when I was a child and I heard 
scary noises that I thought might be a monster, I pulled the 
covers over my head and it worked great. There was never a 
monster in my house, but I am not sure it is because I pulled 
the covers over my head. Do you think if we don't do the 
research in climate change, it is more or less likely to occur?
    Dr. Holdren. Well, I would say if we don't do the research, 
that doesn't affect at all the likelihood that it will occur 
but it does affect very dramatically our ability to cope with 
it.
    Mr. Miller. Thank you.
    I yield back the balance of my time.
    Chairman Hall. I thank the gentleman. You have just made it 
possible for Ms. Adams to have eight minutes.
    I recognize the gentlelady from Florida for I guess as much 
time as she consumes, just so she doesn't consume over eight 
minutes.
    Ms. Adams. Thank you, Mr. Chair.
    Dr. Holdren, last year, you may recall, there was sustained 
and vigorous debate here between Congress and the 
Administration about the future of NASA, the human spaceflight 
program. At the end of the day with the enactment of the NASA 
Authorization Act of 2010, both sides went away claiming some 
small measure of victory but clearly neither party, the White 
House nor Congress, got everything it wanted. The President 
signed the bill, and he did so, I thought, putting the debate 
behind us and moving forward. A central feature of the bill was 
a smaller authorization level for commercial crewed services, 
and Congress's decision to forego implementation of the 
Constellation program. Yet the NASA fiscal year 2012 budget 
request diverges from last year's authorization bill in two 
respects: It proposes spending at a rate 70 percent above 
amounts authorized for commercial spaceflight and it 
significantly underfunds in fiscal year 2012 the authorized 
amounts for the Heavy Lift System, requesting only 70 percent 
of the amounts in our bill, in the Congressional bill. Why has 
NASA chosen to ignore the will of Congress? And I don't need to 
remind you that the Democrats and Republicans, House and 
Senate, took strong exception to last year's budget request?
    Dr. Holdren. I do not believe that the budget is ignoring 
the will of the Congress. I testified on December 1 before the 
Senate Committee on Commerce, Science and Transportation on 
this question. I was asked does the Administration intend to 
follow the law? Are you going to obey the Authorization Act? 
And I said we will to the best of our ability. But I also 
mentioned that our ability to do so would depend on having a 
budget for 2011, and it would depend on being released from the 
constraints of the 2010 appropriations bill which prohibits 
NASA from making changes to the Constellation program.
    We now are where we are, and in light of where we are, 
which is still no 2011 budget and still no relief from the 
constraints from the 2010 Appropriations Act, starting from 
there, you have to consider what it is practical to do from 
where you are now in pursuit of the Authorization Act's aims. 
We agree with the Authorization Act's aims. If you look at the 
numbers, you will find we are funding Heavy Lift and the 
associated crew capsule at quite close to the 2011 levels, 
which is probably the best we could meaningfully spend under 
the circumstances given where we are starting now. In addition, 
the Authorization Act recognized very clearly that the 
continuing operation of the International Space Station and 
minimizing the duration of our dependence on the Russian Soyuz 
to get our crew members up there was also a very high priority. 
And again, in terms of where we are and what we can do from 
where we are, we believe that the budget the President has 
presented is responsible and appropriate in light of the need 
to do as much as we can toward all of the Authorization Act's 
goals under the circumstances we are now in. So we don't think 
we are defying the will of the Congress at all. We think we are 
doing our best to achieve the multiple goals of the 
Authorization Act.
    Ms. Adams. Okay. I will let that go for a minute. The 
Authorization Act gave clear direction to NASA to rely on 
existing contracts as it begins work on the new space launch 
system and multipurpose crew vehicle. Sections 302 of the bill 
said, in part, the Administrator shall, to the extent 
practical, extend or modify existing vehicle development 
associated contracts necessary to build a new launch system.
    I realize to the extent practical is more than just a tiny 
loophole. But based on Members' statements during hearings, 
markups in the House and Senate floor, there were a clear 
expression that to save time and money and to capitalize on 
investments, technology workforce, NASA should give first 
consideration to using existing contracts. With that as 
background, how closely will the Administration follow the 
intent of Section 302?
    Dr. Holdren. You are quite right, Congresswoman, that to 
the extent practicable is important. We don't think of it as a 
loophole. We think of it as a necessity. And as you know, there 
was a requirement for NASA to produce in 90 days an initial 
assessment of what it believed it could achieve in this domain. 
It has produced that assessment, and it has identified real 
challenges in meeting the timelines of the Authorization Act, 
namely the completion of a heavy lift vehicle and a crew 
capsule by the end of 2016, real challenges in meeting those 
deadlines under the budgets that look likely to be available. 
But NASA is examining what the extent practicable is for using 
those existing contracts. And again, I think if you look at 
that 90-day report, you will see that that is exactly what they 
are doing. They are looking for additional ways to find savings 
that would enable us to get where we need to go more quickly, 
but it is a big challenge to achieve the goals of the 
Authorization Act and to achieve them under the fiscal 
constraints that we now face.
    Ms. Adams. Will you?
    Dr. Holdren. We will sure try.
    Ms. Adams. I just have a quick question. You know, we 
talked about STEM and everything. Do you think that human 
spaceflight encourages our youth to get involved in STEM, the 
programs, you know? Science, technology, engineering, math?
    Dr. Holdren. Oh, absolutely. We know first of all that the 
response to Sputnik, the development of the U.S. space program, 
our moon mission and so on was an enormous boost in terms of 
the number of kids who went into math and science and 
engineering as a result of that great adventure, and we think 
more great adventures are in prospect and they will have that 
effect. We have been very clear about that from the outset. I 
am one of those who went into math and science because of the 
excitement about the exploration of space. My senior project at 
MIT was to design a crude Mars mission. I co-led it with 
another member of my aeronautics and astronautics senior class 
at MIT. I think it is very important stuff. Charlie Bolden 
thinks it is very important stuff. We after all have NASA being 
run by a four-time astronaut, twice-pilot and twice-commander. 
He is very excited about human spaceflight. So am I. We have 
got to do it, of course, in a manner that we can pay for. But 
we will do it. And the President, I have to say, is excited 
about it. The President, every time we talk about this, and I 
have talked about it with the President, with the President and 
Charlie Bolden together, the President has had astronauts into 
the Oval Office and into the Roosevelt Room seven times since 
he has been in office.
    Ms. Adams. Well----
    Dr. Holdren. We love this stuff.
    Ms. Adams. --my question is for our youth. And we don't 
want to hinder their yearning to explore, now do we?
    Dr. Holdren. Absolutely not.
    Chairman Hall. Do you yield back any time at all? Okay. You 
did a good job. Thank you.
    I recognize at this time, I am not sure I want to, but Ms. 
Edwards, the gentlelady from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman. That is why I adore 
you.
    And Dr. Holdren, I want to thank you very much for being 
here today, and I look forward to exploring with you and others 
in more detail, particularly around NASA human spaceflight, the 
importance of what I think is a really important mission, both 
for human spaceflight and exploration, also for Earth sciences. 
But I won't take up my time here today.
    What I would like to talk to you about is following up on 
Mr. Fleischmann's line of questions regarding research and 
development and manufacturing and the interrelationship between 
those two.
    My good friend, Mr. Bartlett, from Maryland and I have 
introduced a bill that links research and development with 
manufacturing, domestic manufacturing, here in the United 
States because too often we make deep investments and we are at 
the cutting edge of R&D in so many different sectors, and then 
the manufacturing takes place someplace else. It takes place in 
China, in Germany and lots of other places. And I think that we 
can actually do some things through our tax policy and across 
agencies to incentivize not just the R&D and making it 
permanent which is so important, particularly for small firms. 
The big guys will figure out a way to go from year to year if 
it is not permanent. It is the small, innovative, creative 
nimble firms that really struggle when we don't have a 
permanent tax credit, then linking that to domestic 
manufacturing. So I have been able to visit some firms out in 
my district who are just doing the most amazing work around 
mapping the human genome and, you know, really the most 
cutting-edge science. But they are small firms, and they want 
to be able to do that manufacturing domestically because it 
connects their R&D people to the manufacturing line. If there 
is an opportunity to make changes along that manufacturing 
line, you have got your R&D people right there.
    So I hope that you will look into the legislation that has 
been introduced by Mr. Bartlett and myself along with 
Congressman Sarbanes and others as a way to get there.
    One of the recommendations in the report that was released 
by the White House in 2009 that you cite in your testimony, A 
Framework for Revitalizing American Manufacturing, is to 
improve the coordination of manufacturing R&D programs through 
the National Science and Technology Council. And so I wonder if 
you could tell us what the status is of that interagency 
process and how we can look at all of these, particularly civil 
scientific agencies, to make sure that we have got a sort of 
similar pathway to their success. And so if you could give us a 
brief overview of the Administration's strategy and vision to 
revitalize manufacturing, including federal R&D investments in 
creating jobs here, that would be helpful, and any plans to 
develop a strategic plan for manufacturing R&D so that we don't 
let everybody else take our good ideas and build stuff and 
create jobs.
    Dr. Holdren. Well, Congresswoman Edwards, I thank you for 
that question, because it enables me to say we are doing a lot. 
We are just in the final stages of setting up a National 
Science and Technology Council subcommittee on advanced 
manufacturing under the technology committee, standing 
committee, of the NSTC. It will have three co-chairs, a co-
chair from NIST, the National Institute of Standards and 
Technology, one from DoE, and one from the Department of 
Defense. They are currently in the last stages of vetting for 
those roles. We also have underway a study requested by the 
President of his Council of Advisors on Science and Technology, 
PCAST, on advanced manufacturing which is nearly complete and 
which we hope actually to brief to the President in just a 
couple of weeks.
    We have an assistant director of OSTP for advanced 
manufacturing. Sridhar Kota has been in place for the past 
couple of years on leave from his professorship at the 
University of Michigan, and one of the things that Professor 
Kota has been working hardest on and interacting with folks 
from the business and academic communities around the country, 
is how one links discovery and innovation in our universities 
with translating those discoveries and innovations into 
commercial products in the private sector. And one of the 
things I would note is there is a wonderful example of how this 
can work at the University of Michigan from whom we borrowed 
Professor Kota which is a very large, state-of-the-art 
nanotechnology manufacturing laboratory and experimental 
facility in which businesses of all sizes can come and use 
those facilities to develop their own products and their own 
approaches, including small businesses that could never afford 
this kind of equipment themselves. And it is a wonderful 
example of how we can do better at translating the capabilities 
of our universities and for that matter, our national 
laboratories into tighter interactions with the private sector 
and particularly, as you point out, the smaller businesses that 
wouldn't be able to muster the capital to develop these kinds 
of innovation and experimentation capacities on their own.
    Ms. Edwards. Thank you very much, and I just want to point 
you to something that we are doing in Maryland, and it is 
relatively new, a new initiative by our governor, and it is 
essentially to create that kind of investment fund that could 
spur the kind of investment that is tough to get in this 
economy and particularly for small firms. And I think whatever 
we could do to encourage states on their own to do that, it 
just bolsters what is happening with our federal agencies.
    Lastly, I would just want to ask you, we are in an 
environment here, considering this continuing resolution where 
it feels odd to talk about new investments in science and 
technology and research and the things that are actually going 
to make us grab hold of the 21st century when we are cutting in 
this Congress, this CR, just about every scientific agency out 
there. It is mindboggling to look at the kind of cuts across a 
number of agencies where the investments that we need to make 
for the future are exactly the ones that are being put on the 
chopping block. And I think that is particularly true for NASA, 
and perhaps it is that the White House and the President could 
do a much better job of helping the public understand the value 
of investment in NASA and space exploration and the science 
that comes out of that because it really does translate into 
what happens in our broader commercial sector and the way that 
we remain competitive. So I look forward to the President, you 
know, just speaking out because otherwise, Democrats and 
Republicans alike just put NASA and our other scientific 
agencies right on the chopping block as though it is something 
that we can afford to discard and still hope to be even 
remotely competitive in this century.
    And with that, I would yield the balance of my time if I 
have any, Mr. Chairman.
    Chairman Hall. I thank the lady. You are right on the spot, 
right on the dot here.
    I recognize now the former Chairman Bart Gordon's favorite 
Republican, Mr. Rohrabacher from California.
    Mr. Rohrabacher. Thank you, Mr. Chairman, I would like to 
submit now for the record a list of 100 prominent scientists 
who have serious disagreement with the man-made global warming 
theories that we have talked about today.
    Chairman Hall. Without objection.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rohrabacher. These scientists I would like to add are 
chairmen of science departments at major universities, they are 
at internationally respected institutes of science, and there 
are many more than just 100 as you are well aware.
    Doctor, in the past you have made public statements 
referring to those who question your assessment on man-made 
climate change, and you have labeled them as deniers. The term 
deniers is only commonly used in one other context and that is 
to question whether or not the Holocaust actually took place. 
Do you believe that this is an appropriate term and what 
purpose does it serve except to stifle debate rather than to 
have an honest discussion?
    Dr. Holdren. Congressman Rohrabacher, when I used the term, 
I only intended to use it in its most straight-forward 
interpretation. These are folks who are denying the reality of 
a particular thing, namely climate change. It was not my 
intention to compare them to Holocaust deniers and to the 
extent that that is the impression given, I regret it. And for 
that reason, I will doubtless choose to use other words in the 
future.
    Mr. Rohrabacher. Thank you very much. Now, with that said, 
of course, we have a disagreement on whether or not climate 
change or what used to be called global warming and then when 
things changed, it became climate change. And now maybe it is 
going back to global warming again. We know there have been 
these cycles throughout the history of the planet where it has 
become warmer or colder, and I take it from your testimony 
today that this increase that you are asking for research into 
climate change is going to be mainly aimed not at proving 
whether mankind is responsible because what I have found is 
that is usually used to justify controlling human behavior 
rather than trying--because that is based on the fact that the 
change is based on human behavior, but instead, on perhaps 
researching things that can help us adapt to what could be 
natural climate change.
    Dr. Holdren. I would say first of all that you are correct 
that part of the increased research activity that we propose in 
the President's budget would relate to adaptation, and that 
adaptation would be germane, whether changes in climate had 
been caused by humans or caused by natural forces. That much is 
certainly correct.
    Mr. Rohrabacher. Right.
    Dr. Holdren. But that is not the only activity in climate 
change research that we would continue to support. We have 
extensive observing networks, satellite-based observations, on-
the-ground observations which are helping us understand how 
climate is changing. We have extensive analytical and modeling 
activities which help us try to understand the extent to which 
human activities are contributing. No one in the climate 
science community denies that climate has changed naturally 
over the millennia and that there continue to be natural forces 
influencing the climate. The question is what is the relative 
magnitude today of the natural forces and the human influences.
    Mr. Rohrabacher. Right.
    Dr. Holdren. We intend to continue to conduct research 
which will shed light--to support research which will shed 
light on that question as well.
    Mr. Rohrabacher. I would hope that the end result of 
scientific activity is to make our lives better and not to 
control our lives in the name of saving the planet.
    But one thing we can really agree on, and we can agree on 
what you have just said as well, I might add, is when I am 
looking at your--also the research for the Department of 
Energy, we talk about a certain decrease, but I want to 
pinpoint it because it might not be aimed directly at what I am 
worried about. Number one, I think that we have provided funds 
for fusion energy research for a long time and have very little 
to show for it. So that perhaps does justify some bringing down 
the level of research. But I also understand it says nuclear 
R&D in general, research will decrease by eight percent, but I 
have in front of me a figure. It says that there are $67 
million going to be spent for helping the Small Modular Reactor 
Deployment program to assist in developing and licensing of 
these small modular reactors. Now is that $67 million, is that 
an increase? The overall level of R&D would decrease, but that, 
for small modular reactors, would increase, is that correct?
    Dr. Holdren. Yes, that is correct. The increase for small 
modular reactors is for work that would provide the analytical 
basis to assist in the licensing of this new class of reactors 
which have a great deal to recommend them, by the way----
    Mr. Rohrabacher. Yes.
    Dr. Holdren. --as potential contributors to our electricity 
supply and to our balance of payments, I should say, because we 
could market them rather widely.
    Mr. Rohrabacher. Exactly. Let us note that where we have 
many disagreements, we also have many agreements, and this 
happens to be an area that I have agreed with the 
Administration, for example, much to the dismay of some of my 
own colleagues on the space proposals that have been made about 
NASA, and I really agree thoroughly on this concept of trying 
to get down to business so that we can go into the business of 
manufacturing small modular nuclear reactors. It would both 
have a positive impact on energy, and it is consistent with the 
climate problems that some people are worried about. But I am 
also worried about air pollution whether this would affect as 
well.
    So thank you very much, and I appreciate you being here 
today.
    Chairman Hall. You yield back?
    Mr. Rohrabacher. I yield back.
    Chairman Hall. I note Mr. Lujan who was here earlier, the 
gentleman from New Mexico, you have five minutes, sir.
    Mr. Lujan. Mr. Chairman, thank you so very much. Dr. 
Holdren, thank you for taking the time to be with us today as 
well. I appreciate the Administration's commitment to research 
and development and innovation as key to the Nation's economic 
development and international competitiveness.
    I am particularly passionate about capitalizing on our 
investment in R&D, transforming new scientific discoveries and 
technological capabilities that are produced by R&D into new 
commercial products, new businesses that can create jobs, 
namely those that we see especially with our DoE national labs, 
DoD research facilities, Air Force research labs, NNSA 
facilities which are often overlooked as a key component of 
innovation of the country, especially as they lead to 
opportunities with working small businesses. We need to find 
better ways to open up opportunities. There are entrepreneurial 
lead programs today for scientists, physicists, nuclear 
engineers to work with entrepreneurs.
    But I think that they are only as good as they are on 
paper. We need to find a better way to engage these experts 
with our entrepreneurs and small businesses, even to the extent 
we are able to take advantage of the modeling and computer 
capacity that we have to turn these new ideas together. Without 
the important step of tech transfer, our competitors will only 
be the ones who reap the benefits. Oftentimes we see technology 
that is invented and thought of here in the United States to 
even mature and be commercialized outside of the country, and 
we need to change that.
    I am very happy to announce that myself with my co-chair, 
Representative Frank Wolf of Virginia, have started a 
bipartisan technology transfer caucus to begin to look at ideas 
and ideals around the Bayh-Dole legislation which concentrated 
most of its efforts with universities, but making sure that we 
not forget the applications associated with our national labs 
and science and research taking place in these areas.
    The bipartisan technology transfer caucus in the House, we 
look forward to working with the Administration and with the 
many capacities I think that have to still present themselves.
    You stated in your prepared testimony that as part of the 
President's Start-Up America initiative a broad set of federal 
agencies will launch a coordinated series of policies that 
ensure high-growth start-ups have unimpeded access to capital, 
expanded access to quality mentorship, an improved regulatory 
environment and a rapid path to commercialization of federally 
funded research. I applaud those remarks, and I support them 
strongly, but I would like to hear more about what is actually 
going to be done in these areas. My concerns are with the 
naming of the tech transfer coordinator under DoE, for example, 
that we have yet to rapidly move toward making sure they have 
access to the needed support they need to move this forward. 
With the collapsing of Creative Cooperative Research and 
Development Agreements--in near past with the funding that was 
accelerated in the 1990s, and through the early years of the 
Bush Administration, we saw it go away. And it seemed to me 
that when we talk to small businesses, this was an important 
tool that was used.
    And so I am interested to hear your thoughts in these 
regards and how we might be able to work together to make sure 
we are able to spur this forward.
    Dr. Holdren. Well, Congressman Lujan, I can only applaud 
what you have said about the importance of technology transfer 
and the importance of the national laboratories in this domain. 
My own first job after getting my Ph.D. was at the Livermore 
lab. I almost went to Los Alamos.
    And the potential there for doing more to enable 
discoveries made in the national laboratories to cross the 
boundary into the commercial sector is enormous.
    You asked about the Start-Up America initiative. That was 
only rolled out about a month ago, and when we did, we 
announced the participation of a number of the country's 
leading high-tech entrepreneurs and venture capital folks who 
have pledged their cooperation in setting up the specific 
activities and institutions that for example are going to 
provide the mentorship that the program talks about where 
successful high-tech entrepreneurs have agreed to mentor 
budding entrepreneurs to increase their probability of success 
and where the venture capital community is stepping up in the 
form of many of its real leaders to get this done.
    So it is a new initiative, but we do not intend this to 
just be about an initial meeting where all these high-powered 
folks come and pledge their participation. This effort is being 
led in OSTP by my deputy director for policy, Tom Kalil, who is 
immensely energetic and determined to work with others in the 
Administration and the Congress to make this a success. And I 
am delighted to hear about your tech transfer caucus that you 
and Congressman Wolf are heading. That can only be a benefit.
    Mr. Lujan. Thank you very much, Dr. Holdren. Mr. Chairman, 
I think this is an area where visiting with former Members and 
Members that we have today, that this is an area where we can 
work together to make sure we jump-start the opportunities for 
small businesses.
    I have some other questions around regional innovation 
clusters and minorities in STEM, and Mr. Chairman, if there is 
no objection, I would like to make sure that we submit this 
into the record and maybe we can work with Dr. Holdren to get 
these answered later. But I very much am eager to see how the 
national labs, especially NNSA facilities, will be included in 
that effort. So Mr. Chairman, thank you for your indulgence.
    Chairman Hall. Thank you. Without objection, they will be.
    And Dr. Holdren will answer those, will you not, by mail?
    Dr. Holdren. I will.
    Chairman Hall. And I hate to tell Mr. Sarbanes we have two 
more. Has Mr. Sarbanes left? He is so patient. I was going to 
give him ten minutes. I wish he stayed. Mr. Hultgren from 
Illinois, you are recognized for five--I started to say five 
seconds, five minutes.
    Mr. Hultgren. I would talk really fast. Thank you, Mr. 
Chairman and thank you, Dr. Holdren.
    I want just to talk briefly. I am concerned about funding 
for Department of Energy's Office of Science, and specifically, 
the High-Energy Physics Program which we all know is in a 
period of transition. The Administration has notified Congress 
that it intends to shut down the Tevatron at Fermi National 
Accelerator Laboratory, or Fermilab, which is in my district, 
14th Congressional District, as originally planned at the end 
of Fiscal Year 2011. With the end of operations at this record-
breaking machine, Fermilab is ready to transition to new 
programs including the Long Base-line Neutrino Experiment 
(LBNE). The LBNE is to be the anchor project for the deep 
underground science and engineering laboratory or DUSEL at the 
Homestake mine in South Dakota. Originally planned by the 
National Science Foundation, a study is now under way to 
recommend how to proceed with DUSEL under a revised stewardship 
agreement between DoE and NSF.

    I just had some questions about current status of funding 
for DUSEL for Fiscal Year 2011. Has NSF identified the 
resources to keep DUSEL under way while the study is conducted 
and decisions are being made on the path forward for this 
project?
    Dr. Holdren. My understanding is that NSF and DoE have 
reached agreement on a plan to keep DUSEL moving. I have not 
actually seen that agreement yet, but I have been informed by 
my associate director for science that it has been reached, and 
we will have it shortly. But I am assured that it will succeed 
in keeping the DUSEL project going.
    Mr. Hultgren. Great. And as you hear things, we are 
interested in that, and I would love to hear obviously what the 
next steps are there. The President's Fiscal Year 2011 budget 
requests of $797.2 million for high-energy physics overall 
would amount to a freeze at the Fiscal Year 2010 enacted level 
when other programs in the Office of Science are slated to 
increase from 21 to 24 percent. Why is there such imbalance 
between the basic research portfolio in the Office of Science?
    Dr. Holdren. Well, I would say that the kinds of restraints 
imposed on us by these fiscal times has required some very hard 
choices, and I have been striving to make clear as I talk about 
this budget that it has had to either hold flat or in some 
cases even reduce things that we would much rather have 
increased. But it becomes a difficult exercise in priority 
setting to decide what we absolutely have to keep going as 
opposed to things we would prefer to keep going or expand.
    I think high-energy physics remains an important area. The 
request for high-energy physics in 2012 is almost $800 million. 
This is not chicken feed. It is, however--if I had my choices 
in the best of all possible worlds, it would be more.
    Mr. Hultgren. Real quickly, within the overall funding 
request for high-energy physics, am I correct that the 
President proposes funding for the two new projects at Fermilab 
that are important to its future as the Nation's only 
laboratory for particle physics research?
    Dr. Holdren. Short answer is yes.
    Mr. Hultgren. I like short answers, especially when they 
say that. So that is good. And last, and I appreciate your time 
and your help with this, is the $17 million that is requested 
for the long base-line neutrino experiment sufficient to start 
this project at Fermilab and the transitions from running the 
Tevatron?
    Dr. Holdren. It is my understanding from Dr. Brinkman, who 
heads the Office of Science, that that is the case.
    Mr. Hultgren. Okay. Well, again, thank you very much for 
your work. I do know these are difficult times. We want to be a 
part of that to make sure that we continue great work that is 
happening, make sure that we don't cut things short that really 
are looking toward the future. I know it is so important to be 
looking at immediate transition of projects that we have but 
also looking to the future and making sure that our Nation 
stays on that forefront.
    So Dr. Holdren, thank you so much for being here. Look 
forward to working closely with you during these difficult 
times and hopefully as times get better as well. So thank you.
    Dr. Holdren. Thank you.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Chairman Hall. The gentleman yields back. I recognize the 
gentleman from Michigan, Mr. Clarke, for five minutes.
    Mr. Clarke. Thank you, Chairman Hall. Ranking Member 
Johnson, Dr. Holdren, I am new to this Committee. In fact, I am 
new to Congress. But I am born and raised in the Motor City, 
and I represent the City of Detroit right now. And that city's 
achievements in manufacturing and automotive technology was 
recently highlighted by the artist, Eminem, in a recent Super 
Bowl ad, and I am really proud of the cars, you know, 
especially in the district that I represent. General Motors 
manufactures the Chevy Volt which I believe represents the best 
in plug-in hybrid auto technology.
    Just on a personal note, and I am doing this also because I 
want to promote my city and really what it meant to me. My dad 
was an immigrant from India who came to this country 80 years 
ago, came to Detroit specifically for the purpose of working in 
the Ford Foundry. So manufacturing is in me. It is what made my 
city great.
    Our lack of focus on that, though, I believe has also led 
to the decline of the southeast Michigan region, temporary 
decline. But also as our President noted in the State of the 
Union, it is in new, American manufacturing is how we can help 
bring more stability to our families financially, create a 
really enduring prosperity for our country and great products 
that we can sell worldwide that folks in other countries can 
enjoy.
    Anyway, those are my preliminary remarks. I appreciate your 
at least giving me the time to at least, you know, share with 
you the importance of metropolitan Detroit, the importance of 
investing in manufacturing and in that region. It is not only 
going to help Detroiters, it is going to help this country.
    In the proposed budget, can you give me some examples on 
how this proposed budget would help further develop and deploy 
new technologies that really can advance manufacturing here in 
this country, if you are able to? And then I also have--let me 
just give you the second question. It is really related to 
that. It is if you can comment on the impact of federally 
funded R&D in terms of creating those small businesses that 
create jobs as well, especially in the manufacturing-related 
sectors.
    Dr. Holdren. Well, first of all, Congressman Clarke, I can 
only underscore and agree with your comments at the outset 
about the importance of manufacturing in this country, about 
the importance of manufacturing obviously in Michigan and 
Detroit. I already mentioned a particular activity at the 
University of Michigan linking their capacities in 
nanotechnology with the small business community and the 
opportunities for small business to use facilities and 
equipment they wouldn't be able to afford on their own. My 
understanding is that that facility has already spawned a 
number of successful start-ups and launched them into domains 
in which they are succeeding.
    I would mention the National Nanotechnology Initiative and 
the funding it receives in the 2012 budget as a good example of 
feeding the underpinnings of advanced manufacturing. 
Nanotechnology is going to be immensely important in the 
manufacturing domain going forward. We have to invest in 
maintaining and extending American leadership in this domain, 
and it is a domain in which small companies as well as large 
ones are succeeding and are going to continue to be able to 
succeed.
    Another domain that is very important is the domain of 
networking and information technology. Again, there is 
substantial support for that in the budget. It is important in 
part because the use of information technology in advanced 
manufacturing, using information more effectively to save 
energy, to save materials, to make products to finer 
tolerances, to make them in new ways is going to contribute to 
our capabilities in the advanced manufacturing domain. I think 
you find all across this budget, in the budget for NIST, the 
National Institute of Standards and Technology, in the budget 
for DoE, even the budget for the Department of Defense, which 
of course, is very interested in advanced manufacturing as 
reflected in their co-chairmanship of the embryonic National 
Science and Technology Council Committee on Advanced 
Manufacturing. There is a lot of support for that domain. The 
President understands it is important. One of the studies that 
the President requested from PCAST was that we look at the 
potential in advanced manufacturing and make recommendations 
for what more we can be doing, and we will be doing that very 
shortly.
    Mr. Clarke. May I have an opportunity----
    Chairman Hall. Yes, sir?
    Mr. Clarke. --to ask one more follow-up on this. Just one, 
sir.
    Chairman Hall. The Chair recognizes you for another minute.
    Mr. Clarke. Thank you very much, Mr. Chair. Also to the 
doctor, we have got a great research university in my district 
whose capacity for R&D has grown dramatically in the last 30 
years. That is Wayne State University, and I look forward to 
some type of partnership with that university and some of your 
agencies.
    Just my last point on this, I would like the opportunity to 
actually comment on STEM and how we can make sure that we can 
get teachers trained in that area in inner-city districts like 
my own. But for the sake of time, I will just ask this last 
question. Can you comment on the impact on jobs in the economy 
should the Federal Government really slash its investment in 
R&D as proposed in the current continuing resolution that we 
are considering this week?
    Dr. Holdren. First of all, I would say that most economists 
who studied economic growth over the decades have concluded 
that well over half, some say as much as 80 percent, of 
increases in productivity in the United States over the last 50 
years have come from innovation, have come from our past 
investments in science and technology and innovation. Nobody 
could predict the future with a clear, crystal ball. But 
looking at the history of the contributions of science, 
technology, and innovation to our economy, it would seem to be 
imprudent to cut off our investments in that domain if what we 
are interested in is economic growth and prosperity. I think 
the President said it very well in his speech in North Carolina 
some weeks ago when he said if you are trying to make an 
overloaded airplane lighter, you don't do it by throwing 
overboard the engines. And really, science, technology and 
innovation have been the engines of our economic growth over 
the decades. They are expected to be the engines of our 
economic growth going forward as long as we don't throw the 
engine overboard.
    Chairman Hall. Do you yield back? Ms. Johnson and I are 
probably going to give a prize for the one that represents 
their district better, and Mr. Clarke, you were the one today.
    All right. Let us see. Who will we recognize now? Mr. 
Lipinski. He is a Ranking Member of the Research and Science, 
Education Subcommittee, and he has a lot of other obligations. 
Thank you for coming and including us today. We will recognize 
you for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank Dr. 
Holdren for spending all this time with us today. He has 
probably been here since I have cast 14 votes, been here, been 
to another committee, asked questions, went to a delegation 
lunch, and I am back here and you are still here. I appreciate 
that.
    I want to associate myself with the comments of Mr. Clarke 
and also Ms. Edwards on manufacturing. It is critical. I am not 
from Detroit, but I also did love that Eminem commercial. I 
don't love Eminem either. He's alright, but I don't know. But 
it was a fantastic commercial. It is sort of what we, I think, 
really need to get that back in this country. We need to be 
building things, and I think you understand that. You were just 
talking about nanotechnology. I have said many times in this 
Committee that I have drunk the nanotech Kool-Aid. I believe 
that it is critical in so many different areas to the future 
economic growth and jobs, and I think the United States has to 
be on the forefront of that.
    I was pleased to see in the President's 2012 budget that 
the funding for nanotechnology research was modestly increased, 
and I was particularly interested to see substantial new 
investment in nanomanufacturing research.
    So one thing that I think is very critical, and hopefully 
we will get through this quickly--I have one other question in 
one other area--is what more can be done for nanotechnology 
commercialization? That is an area that I have been very 
focused on in my time on this Committee since I have been in 
Congress. What more can be done in commercialization? What are 
your plans?
    Dr. Holdren. Well, I think there is a substantial amount of 
effort in the National Nanotechnology Initiative moving in that 
direction. In fact, you mentioned that it is up in the 2012 
budget, and the reason it is up is precisely to support some 
areas that are moving successfully in the direction of 
commercialization but need some more help to get all the way 
there.
    I would also say that the model I mentioned before of 
having facilities that have the advanced equipment that is 
needed to do cutting-edge research on nanotechnology and how it 
can be commercialized, the model of that facility at the 
University of Michigan which is available to the private sector 
to work with, that is a model we ought to expand. And we ought 
to do it with our national laboratories as well as our great 
research universities as a way to help bridge this gap that 
sometimes occurs between discovery and commercialization.
    Mr. Lipinski. Just to make the Chairman proud, Northwestern 
University, my alma mater, is doing a great job of nanotech 
research, although it is not in my district. It is close 
enough.
    One other thing I wanted to talk about is you know that one 
of the most significant accomplishments of this Committee last 
Congress I think is the Congress' passage of the America 
Competes Reauthorization, and there is one particular provision 
I wanted to talk about. It is Section 105 which is based in 
part on the genius grants, the Genius Act that I introduced 
with Representative Wolf. This section gave the research 
agencies broad, new authority to offer prizes for innovative 
research or solutions to critical problems. I think the prizes 
as a complement to traditional research funding mechanisms, not 
as an alternative but a complement, can offer a new way to 
incentivize high-risk, high-reward research and generate 
excitement on the frontiers of science and engineering. I know 
that COMPETES was passed too late for this section to be 
reflected in this year's budget, but can you comment on whether 
you see this authority being helpful in the future and how you 
think research agencies might take advantage of this language 
about giving authority to do the prizes?
    Dr. Holdren. Well, certainly the Administration, President 
Obama, are very enthusiastic about COMPETES having been 
reauthorized. The President was delighted to sign that 
Reauthorization Act. OSTP is already in the process of 
implementing that Reauthorization Act. I happened to write a 
blog celebrating the passage of that. Very shortly afterwards 
it appeared on the White House website, but we have done a 
number of things in direct support of that act. We have 
established a National Science and Technology Council Committee 
on STEM education. We will meet for the first time in just a 
couple of weeks. That is Section 101. We have established as I 
mentioned already an interagency working group on advanced 
manufacturing R&D under the NSPC. We are in the process of 
establishing an interagency public access committee, which is 
Section 103, which I think you referred to. We have an 
interagency group on scientific collections that is working on 
the aspect of America COMPETES there. And you mentioned 
competitions and prizes. We are enormously enthusiastic about 
the potential of competitions and prizes. A lot has been 
happening there. I am sure you know about the Automotive X 
Prize where $10 million in prize money put out by the private 
sector in a competition that was co-sponsored and co-organized 
with the Department of Energy led to $100 million of 
investments by the competitors competing for the $10 million 
prize on how to make automobiles that would get more than 100 
miles per gallon of gasoline equivalent.
    We now have a one-stop shopping website called 
Challenge.gov where all the existing prizes and challenges that 
are out there that are documented so that folks can find them 
and identify things they would like to compete in. We think 
this is a very high leverage domain and again are very happy 
indeed by the encouragement provided in the reauthorization of 
America COMPETES for that direction. So we are great fans of 
this Committee and what it has managed to do through the 
original America COMPETES and now its reauthorization. This is 
great stuff.
    Mr. Lipinski. Thank you, Dr. Holdren, and I yield back.
    Chairman Hall. I thank the gentleman. Finally, the very 
patient Mr. Sarbanes. I am glad to recognize you for five 
minutes where I don't have to say I didn't see the woman come 
in here with that hat on. You are recognized.
    Mr. Sarbanes. I appreciate it, Mr. Chairman. Thank you very 
much. I understand I stepped out just before you called me. I 
will try not to do that again.
    Chairman Hall. We were going to wait for you if you came 
after dinner.
    Mr. Sarbanes. Dr. Holdren, thank you for being here today. 
I appreciate your patience.
    I wanted to just go back to the climate change thing real 
quickly because Congressman Rohrabacher was pointing to a group 
of I guess you might call them dissenters on the view that 
climate change is now being driven by this sort-of a man-made 
phenomenon at this point, and I just wanted you to comment, if 
you could, on the notion of what it means to reach scientific 
consensus. Obviously, that can't mean that we will have 100 
percent universal agreement on whatever the particular 
scientific judgment is that needs to be made. We are charged 
with making policy judgments and setting a program direction 
and so forth based on looking at the preponderance of evidence 
and so forth. And isn't that the case here? I mean, however 
many scientists there may be out there who indicated some 
anxiety or concern or resistance to the notion of climate 
change, there is an exponentially greater number of people, it 
appears to be, on the other side who really believe this is 
happening. And we have to base our judgments on sort of the 
balance of what is there, in this case, I think a very heavy 
balance in that direction, and that would constitute a 
consensus for purposes of making policy, would you not agree?
    Dr. Holdren. I would agree. I have not seen the particular 
list of 100 that Congressman Rohrabacher mentioned. I can only 
say that in the past that when such lists have materialized, 
most of the names on them were folks who were not actually 
climate scientists. And one could reasonably assume that they 
had not spent as much time in the scientific literature of 
climate change as those who do that as a full-time profession. 
As was mentioned earlier here, rather serious and systematic 
studies of what professional climate scientists believe have 
indicated that well over 95 percent of professional climate 
scientists believe the basic propositions that I have 
summarized here now a couple of times about climate change 
going forward in ways that are highly unusual against the 
backdrop of natural variations, that humans are very likely 
responsible for a large part of that and so on.
    Mr. Sarbanes. I appreciate that answer. I am going to jump 
to another topic real quick.
    Dr. Holdren. Let me just say if I may, it would be a very 
odd thing indeed if all of the academies of sciences of the 
world, the Chinese Academy, the Russian Academy, the U.S. 
Academy, the Brazilian Academy had all reached this conclusion. 
These academies are rather conservative bodies. They don't 
lightly issue reports and statements about matters of science 
bearing on public policy. The fact that every academy of 
science in the world virtually has done this should have 
considerable weight in telling us where the scientific 
consensus is. And you are absolutely right, there will always 
be dissenters, but they are very much in the minority and the 
question is why should we bet the welfare of the public against 
the very long odds that the vast majority would turn out to be 
wrong and a very small minority would turn out to be right?
    Mr. Sarbanes. Thank you. I was encouraged by the 
President's fiscal year 2012 budget with respect to the 
investments being made in some of the critical areas that we 
have talked about today. I wanted to ask you about STEM 
education. The President announced this particular recommitment 
to that investment at Parkville Middle School a few days ago 
which is located in my district, and we are very proud of the 
STEM education program that they have there.
    I understand there is a group coming together that is going 
to try and look at where there might be some duplication of 
effort or how better to coordinate across agencies the delivery 
of STEM education and that emphasis, and I applaud that. And 
just looking for example at the relative resources committed to 
the Department of Education for that effort versus say the 
National Science Foundation and other agency commitments is 
going to be important. But what I wanted to ask you is, how do 
you think we compare to our peer nations? I mean, the Parkville 
Middle Schools of America are doing a good job with STEM 
education, but how much is that the exception versus the rule, 
particularly when you lay it against what is happening in these 
nations that are competing with us with respect to that kind of 
investment?
    Dr. Holdren. First of all, as you know, in the various 
standardized tests on math and science, the United States has 
not been doing well in relation to our competitors. We tend to 
rank variously between 17th and 25th among the nations of the 
world in standardized math and science tests in various grades, 
ranging from 4th to 8th to 12th. And what is even more 
discouraging is our rankings tend to get worse as you go up in 
age. So we are doing worse in the 8th grade than in the 4th, 
and we are doing worse in the 12th grade in comparison to our 
competitors than in the 8th.
    On the other hand, it remains true that we have by far the 
greatest college and university system in the world, and one of 
the reasons we continue to lead in so many fields of math and 
science and engineering is that the strengths of our college 
and university system in some sense have been at least partly 
compensating for the shortcomings at K through 12. But we need 
to lift our game in both places. We need to lift our game in K 
through 12. We need to lift our game in colleges and 
universities because even as good as the colleges and 
universities are, they are losing too many people who come in 
enthusiastic about science and technology and then end up 
drifting off into other fields because their teachers aren't 
inspiring enough, their curricula aren't stimulating enough, 
and we have got to fix that. We have got to fix it at K through 
12.
    I would also say, though, by way of balance that when I 
talk to my counterparts in China and Japan and South Korea as I 
did this past summer in joint commission meetings on science 
and technology cooperation that we have with those countries, 
they still envy our school system because they think although 
we are doing worse than they are on standardized tests, they 
believe that we do better at inculcating creativity in our 
kids. And they complain that their systems are not doing as 
well in terms of creativity and that is hurting them ultimately 
in innovation.
    I think there is a lot that we need to get to the bottom of 
as we try to understand what we do well and what we do not so 
well in K through 12 education, and something that is very 
refreshing is that over the past decade, there has been a 
growing emphasis on serious systematic research to actually 
understand what works and what doesn't work, rather than simply 
basing our opinions about this matter on anecdotal experiences 
and what we may have experienced ourselves in our schools. Our 
STEM education effort in OSTP is now being led by our Associate 
Director for Science, Carl Wieman, whom I mentioned before is a 
Nobel Laureate in physics, but he is focused far more these 
days on STEM education, which has become his passion, other 
than on just physics itself. And Carl is overseeing the setting 
up of the National Science and Technology Council Committee on 
STEM education that is going to do this work you mentioned of 
looking across all of our STEM education efforts across all the 
agencies that engage in this, looking for duplication, looking 
for symbiosis and looking for more rigorous application of what 
research shows about what works in this domain.
    Chairman Hall. Will the gentleman yield? Before you yield 
back your time, Mr. Rohrabacher is not here, but if he is here, 
I would imagine that he wouldn't agree with your dismissal of 
those 100, either you or the witness'. There just might be some 
scientists in there that know what they are doing, and I would 
guess that maybe there is not one in the 100 that would have 
seven years ago predicted a catastrophic sea level rise of 15 
feet when it is only two or three or four inches. Don't pooh-
pooh what you call the minority of people that don't believe 
what is being trying to be sold as a majority of scientists. We 
need to get them beforehand and have you a chance to visit and 
inquire of them, us to have a shot at them, and then decide, 
okay? Thank you.
    Is there anyone else here? All right. Thank you, Dr. 
Holdren, for your valuable, willing testimony and congenial 
testimony and the members for their questions. The members of 
the Committee may have additional questions for you, Dr. 
Holdren, and I would ask you to respond to them in writing if 
you will, sir.
    Dr. Holdren. I will, and thank you very much, Mr. Chairman, 
and the Ranking Member as well.
    Chairman Hall. The record will remain open for two weeks 
for additional comments from Members. The lady from Dallas Ms. 
Johnson, do you have anything further?
    Ms. Johnson. No, I just want to thank the witness.
    Chairman Hall. With that, she just wants to thank the 
witness. I join her. We are adjourned.
    [Whereupon, at 1:35 p.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. John P. Holdren, Assistant to the President for 
        Science and Technology and Director of the Office of Science 
        and Technology Policy (OSTP)

Questions submitted by Representative Ralph M. Hall

Q1.  It is my understanding that departments/agencies participating in 
the U.S. Global Change Research Program (USGCRP) are assessed a certain 
amount each year to support National Research Council studies, the U.S. 
Global Change Research Program Integration and Coordination Office 
(USGCRP ICO), several international programs (e.g., International 
Geosphere-Biosphere Programme (IGBP), and the Earth System Science 
Partnership (ESSP),etc.), and several IPCC activities (e.g., the IPCC 
WGII Technical Support Unit (TSU) and travel for U.S. scientists to 
participate in IPCC meeting).


Q2.  For each of Fiscal Years 2008-2012, please provide actual, 
estimated and requested funding as appropriate for each USGCRP 
centrally-funded entity/activity, as well as the amounts assessed each 
department/agency participating in the U.S. Global Change Research 
Program (USGCRP) using the following table as a template.

A1. Please see the attached table and technical notes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


NOTES: (1) NSF administrative costs are for handling 
interagency fund transfers related to the shared costs (2) DOS 
has USGCRP funding but does not participate in Distributed Cost 
Assessments (3) NASA observations and science; observations 
reduced by 1/3 for purposes of distributed cost assessment (4) 
Represents assessment equaling approximately 0.35% of total 
enacted USGCRP funding for all agencies (5) Agency assessments 
for FY2011 Distributed Cost Budget Supplemental (FY11 
activities) and FY2011 Distributed Cost Budget (FY12 
activities) are subject to change pending Congress's approval 
of FY11 and FY12 President's budgets. SOURCE: USGCRP National 
Coordination Office

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4.  In consultation with the Office of Management and Budget (OMB), 
please update the Climate Change Science and Climate Change Technology 
sections of the June 2010 Federal Climate Change Expenditures Report to 
Congress to incorporate the President's Fiscal Year 2021 [sic] budget 
request.

A1. The June 2010 Federal Climate Change Expenditures Report to 
Congress will be updated later in 2011. OSTP will provide updated 
funding data to the Committee at that time.

Q4.  You did not transmit Our Changing Planet: The U.S. Global Change 
Research Program for Fiscal Year 2011 to Congress until January of this 
year - some 11 months after the President released his Fiscal Year 2011 
Budget.

        a.  Why was this report delayed so long?

        b.  When can we expect to receive Our Changing Planet: The U.S. 
        Global Change Research Program for Fiscal Year 2012?

A1. Because the USGCRP is undergoing a strategic realignment, 
additional time was required to develop the FY 2011 edition of the Our 
Changing Planet report. The FY 2012 edition ofOur Changing Report is 
currently scheduled for release and transmittal to Congress in late 
summer or early fall of 2011.

Q5.  Over 1.6 billion people - 25 percent of the world's population - 
do not have access to electricity. Many of them soon well, thanks to 
expanded use of coal, which is forecast to increase 50 percent by 2030. 
The affordable electricity provided by coal will enable economic 
development and help alleviate poverty in places such as China, India, 
and Africa.

        a.  How will U.S. efforts to reduce greenhouse gas emissions 
        have any impact on climate change given the expected dramatic 
        increases globally? Should the U.S. impose higher energy costs 
        on its citizens if the benefits are negligible?

        b.  You have often said that we must reduce greenhouse gas 
        emissions to avoid climate change-caused ``suffering,'' but 
        won't forcing developing countries to avoid expanded fossil 
        fuel use (or pay more for fossil fuels via carbon capture and 
        sequestration, etc.) serve to prolong global suffering and 
        poverty?

A1. In its 2010 International Energy Outlook, DOE's Energy Information 
Administration (EIA) projected that world coal consumption would 
increase to about 186 quadrillion BTU (quads) in 2030, which is 30 
percent greater than 2009 consumption of 143 quads. A single country-
China-accounts for 80 percent of the world increase in coal 
consumption. Almost none of the increase in Chinese coal consumption 
will go to providing basic access to electricity, because over 99 
percent of Chinese households already have access to electricity.
    Access to electricity and to the services it provides, such as 
lighting and refrigeration, is vital to economic development. But in 
many countries coal appears to be the most ``affordable'' source of 
electricity only because many of the costs of coal use-air pollution, 
acid deposition, and climate change-are not included in the price. In 
2007, the World Bank estimated that air pollution, largely from coal 
burning, was responsible for 350,000 to 400,000 premature deaths per 
year in China. In 2003, a joint study by the Chinese Institute of 
Environmental Science and Qinghua University estimated that acid rain 
from coal burning caused economic losses of over $13 billion per year. 
In 2010, an interagency working group estimated that $5 to $65 in 
economic damages results from each additional ton of carbon dioxide 
emitted (e.g., lost agricultural productivity, human health, property 
damages from increased flood risk due to climate change), equal to 
about $12 to $160 per ton of coal burned. These damages to human 
health, economic productivity, and ecosystems from air pollution, acid 
deposition, and climate change are not included in the price of coal. 
When a full accounting of the costs is done, cleaner sources of 
electricity, such as natural gas and renewables, provide greater 
overall benefits to citizens.
    The EIA scenario discussed above, in which coal consumption 
increases by 30 percent by 2030, does not include policy actions 
designed to reduce emissions of greenhouse gases. Policy actions by 
China, India, and other major emitters will be required to reduce 
global emissions and limit climate change. The United States cannot do 
it alone, but the United States should and must lead. Reductions in 
U.S. emissions are essential as part of a strategy to achieve 
reductions in global emissions, because other major emitters will not 
act in the absence of tangible action by the U.S., which is the world's 
largest economy. In addition to the direct health and environmental 
benefits of our own emission reductions, there will be the larger 
effect of global emissions reductions that can be spurred by our 
willingness to act, as well as the economic benefits of leading the 
world in the development and deployment of clean and efficient energy 
technology. As the President has said many times, ``The nation that 
leads the clean energy economy will be the nation that leads the global 
economy.''
    The Administration is not proposing to ``force'' developing 
countries to avoid expanded fossil fuel use. Rather, the Administration 
is attempting to persuade other countries that 3 policies that reduce 
greenhouse gas emissions are in their own long-term interests, as well 
as in the common interest of humanity. As noted above, the long-term 
economic benefits of moving to cleaner sources of energy, such as 
efficient natural gas and renewables, are greater than the long-term 
benefits of expanded use of coal without modern pollution controls and 
carbon capture and sequestration. The short-term economic gains from 
burning more coal with old technology will be offset by premature 
deaths due to increased air pollution and by economic damage due to 
acid rain and climate change.

Q6.  A couple of years ago, a group of well-respected economists, led 
by Dr. Bjorn Lomborg, prioritized a number of global challenges to 
determine the most cost-effective way to improve the quality of life 
for people around the world. Recognizing that we have limited 
resources, they ranked the value of addressing problems such as 
disease, malnutrition, climate change, health care, sanitation, and 
water quality. Compared against these other challenges, climate change 
came in last - signaling that spending billions to address it would 
have the lowest impact for the highest cost.

        a.  Do you believe it makes sense to undertake an economic 
        exercise such as this to informpolicymaking?

        b.  Do you disagree with the group's conclusions that our money 
        would be better spent fighting disease and addressing water 
        quality issues than trying to impact global climate through CO2 
        reductions?

A1. In connection with the Lomborg exercise mentioned, which took place 
in 2004, I would note that (a) Lomborg is not an economist, (b) the 
group he convened did no formal and consistent analysis of costs and 
benefits of the various proposals that were examined, but simply lumped 
the proposals into four categories based on the personal impressions of 
the participants after brief discussion of some non-peer-reviewed 
background papers prepared for the purpose, and (c) Lomborg himself has 
since changed his view and now advocates large investments in R&D to 
develop new energy technologies to abate the climate-change threat.
    Estimates of costs and benefits are an important guide to 
policymaking. In a recent Executive Order on Improving Regulation and 
Regulatory Review (E.O. 13563, January 18, 2011), the President 
required that agencies ``propose or adopt a regulation only upon a 
reasoned determination that its benefits justify its costs, and that 
agencies ``select, in choosing among alternative regulatory approaches, 
those approaches that that maximize net benefits.'' But the Executive 
Order also recognizes that costs and benefits can sometimes be 
difficult to quantify. I believe it is important to carefully consider 
all of the potential future costs and benefits of proposed policies.
    The test of a policy is whether the benefits justify the costs, and 
whether the policy is designed to achieve the greatest net benefit 
among feasible alternatives-not whether one can find another policy 
that has greater benefits per dollar spent. For example, guardrails may 
save more lives per dollar spent than further safety measures such as 
seatbelts and airbags, but even given the existence of guardrails, 
seatbelts and airbags have very high net benefits. Although it is true 
that public policies should consider existing measures, such as 
guardrails, when considering adopting other safety measures, in this 
case we are clearly better off with all three.
    The costs and benefits of reducing greenhouse gases are difficult 
to quantify. This is due to the combined effect of uncertainties in 
future emissions and greenhouse gas concentrations; uncertainties in 
the response of the climate system to increased greenhouse gas 
concentrations; uncertainties in the cost to adapt to these changes in 
climate and to adopt technologies that reduce emissions; and 
uncertainties in the monetary value of climate impacts, particularly 
those far in the future, and those that have no obvious market value, 
such as the extinction of species. As a result, estimates of the social 
cost of carbon span a wide range. In 2010, an interagency working group 
led by the Executive Office of the President estimated that $5 to $65 
(in 2007 dollars) in economic damages results from each additional ton 
of carbon dioxide emitted that year (e.g., lost agricultural 
productivity, human health, property damages from increased flood risk 
due to climate change). This means that it would be economically 
beneficial to spend at least $5 per ton, and as much as $65 per ton, to 
reduce carbon dioxide emissions. The working group also estimated these 
values would increase over time as the magnitude of climate change 
increases, reaching approximately $16 to $136 per ton (in 2007 dollars) 
by 2050. Even taking the lower values,there are many actions that can 
be taken to significantly reduce greenhouse gas emissions, in the 
United States and other countries, that cost less than $5 per ton, and 
many more that cost less than $65 per ton.

Q7.  In testimony before Congress shortly after the ClimateGate scandal 
broke in December 2009, you characterized the controversy as something 
that would be ``sorted out over time. by the process of peer review.'' 
I am concerned, however, about the integrity of the peer review process 
itself. The ClimateGate emails revealed a strong pattern of scientists 
suppressing scientific information that does not conform to their 
alarmist viewpoints. For example:

        a.  Several emails discuss attempts to blacklist certain 
        researchers' papers from publication, and initiating a boycott 
        of scientific journals that publish papers skeptical of the 
        alarmists' viewpoints;

        b.  Other emails discuss ousting editorial board members with 
        non-conforming views; and

        c.  Perhaps most disturbing, one researcher commits himself to 
        ensuring that no non-conforming science is included in the 
        report of the Intergovernmental Panel on Climate Change (IPCC). 
        Specifically, this researcher said ``Kevin and I will keep them 
        out somehow--even if we have to redefine what the peer-review 
        literature is!''

    Please provide your opinion on the appropriateness of these 
specific emails, specifically whether you agree that they reveal an 
attempt by leading influential scientists to undermine the peer review 
process. How does this correspondence impact on your confidence in the 
peer review process to ``sort out'' scientific controversies as you 
stated in earlier Congressional testimony?

A1. The point I was making in my testimony is that scientific 
controversies--such as the controversy about the validity of the 
``hockey stick'' representation of the temperature history of the Earth 
over the past two millennia, which was the focus of most of the stolen 
emails--generally get sorted out over time by the process of peer 
review and continued critical scrutiny by the knowledgeable community 
of scientists. Nothing in the e-mails shakes my confidence in the 
validity of this contention. Scientists, like other human beings, 
sometimes make mistakes in their work, and, like other human beings, in 
the midst of controversy and the heat of debate they sometimes say ill-
considered things. But peer review and continuing discussion in the 
community of the knowledgeable is an excellent mechanism--the best we 
have--for sorting through claims and counter-claims, filtering out the 
wrong and the irrelevant, and clarifying, over time, what we can say 
with confidence.
    In the case of the ``hockey stick'' controversy addressed in the 
stolen e-mails, the matter ended up going to the highest U.S. ``court 
of appeal'' in the domain of peer review--the National Academy of 
Sciences. The Academy's exhaustive report (National Research Council, 
Surface Temperature Reconstructions for the Last 2,000 Years, National 
Academy Press, 2006, 156 pp) concluded that the methods of analysis 
used by the ``hockey stick'' authors were scientifically acceptable and 
that the authors' key conclusion that the last 50 years have been the 
warmest in many centuries is likely to be correct. And, while in 
science there is never a ``last word'', nothing that has been said or 
published since the 2006 Academy report has offered a plausible 
refutation of its conclusions or made a case that the Academy's review 
was itself marred by bias.
    The stolen e-mails do reveal that some of the scientist authors 
became frustrated and impatient with queries about their data from 
critics whose motives they felt were other than the pursuit of 
knowledge, and frustrated as well by the publication of a transparently 
flawed critique of their work in a supposedly peer-reviewed journal 
that had become notorious for publishing flawed work. (When this 
particular case came to light, in fact, its editor resigned in 
embarrassment.) Some of their e-mailed comments in this situation were 
in a circle-the-wagons vein, not properly respectful of the need for 
transparency with data no matter the perceived stance of the 
requestors, and some of the comments lent themselves to 
misinterpretation outside the context in which they were made. But 
there is nothing in these e-mails that comes close to supporting a case 
for pervasive corruption in the peerreview system in climate science.
    That has also been the conclusion of all five formal reviews of the 
e-mail flap that I am aware of. Thus, the UK House of Commons 
report(http://www.publications.parliament.uk/pa/cm200910/cmselect/
cmsctech/387/387i.pdf) concluded on this point that ``Likewise the 
evidence that we have seen does not suggest that Professor Jones was 
trying to subvert the peer review process. Academics should not be 
criticized for making informal comments on academic papers.''
    A second UK review, The Scientific Assessment Panel headed by Lord 
Oxburgh (http://www.uea.ac.uk/mac/comm/media/press/CRUstatements/SAP) , 
wrote: ``We saw no evidence of any deliberate scientific malpractice in 
any of the work of the Climatic Research Unit and had it been there we 
believe that it is likely that we would have detected it. Rather we 
found a small group of dedicated if slightly disorganized researchers 
who were illprepared for being the focus of public attention. As with 
many small research groups their internal procedures were rather 
informal.''
    The RA-10 Inquiry Report investigating Professor Michael Mann's 
actions under Penn State's research misconduct policy concluded as 
follows: ``The Investigatory Committee determined that Dr. Michael E. 
Mann did not engage in, nor did he participate in, directly or 
indirectly, any actions that seriously deviated from accepted practices 
within the academic community for proposing, conducting, or reporting 
research, or other scholarly activities.''
    The Independent Climate Change Email Review (http://
www.ccereview.org/pdf/FINAL%20REPORT.pdf) stated that ``On the specific 
allegations made against the behavior of CRU scientists, we find that 
their rigor and honesty as scientists are not in doubt... In addition, 
we do not find that their behavior has prejudiced the balance of advice 
given to policy makers. In particular, we did not find any evidence of 
behavior that might undermine the conclusions of the IPCC 
assessments.''
    Most recently, last month's Report of the Inspector General of the 
Department of Commerce, on whether the e-mails pointed to any 
wrongdoing by NOAA scientists, found as follows (http://
www.oig.doc.gov/oig/reports/2011/001688.html): ``In our review of the 
CRU emails, we did not find any evidence that NOAA inappropriately 
manipulated data comprising the GHCN-M [Monthly Global Historical 
Climatology Network] dataset or failed to adhere to appropriate peer 
review procedures.''
    With regard to ``blacklisting,'' ``boycotting,'' and ``ousting,'' 
please see the discussion in Chapter 8 of The Independent Climate 
Change Email Review, beginning on page 68 (http://www.cce-review.org/
pdf/FINAL%20REPORT.pdf). The Review concludes: ``In our judgment none 
of the above instances represents subversion of the peer review process 
nor unreasonable attempts to influence the editorial policy of 
journals. It might be thought that this reflects a pattern of behavior 
that is partial and aggressive, but we think it more plausible that it 
reflects the rough and tumble of interaction in an area of science that 
has become heavily contested and where strongly opposed and 
aggressively expressed positions have been taken up on both sides. The 
evidence from an editor of a journal in an often strongly contested 
area such as medicine (Appendix 5) suggests that such instances are 
common and that they do not in general threaten the integrity of peer 
review or publication.''

Q8.  The centerpiece proposal in President Obama's State of the Union 
address is his plan to require 80 percent of U.S. electricity to be 
derived from ``clean'' energy sources. A study by economists at Suffolk 
University found that the cost of a clean energy standard similar to 
what the President is proposing would be almost $200 billion a year and 
over $4 trillion over a 20-year period. Other studies might estimate 
these figures to be higher or lower, but as a matter of basic 
economics, doesn't the President's proposal amount to mandating 
Americans to pay significantly higher electricity costs? If the 
President's plan is successfully implemented, and we do indeed achieve 
his 80 percent clean energy goal, how much will projected climate 
threats be reduced?

A1. The Suffolk University study focuses on a renewable portfolio 
standard (RPS). Unlike the President's proposal, an RPS does not 
include natural gas, nuclear, and coal with carbon capture and 
sequestration as sources that qualify towards meeting the target. The 
omission of natural gas from an RPS is particularly significant because 
natural gas is an abundant low-cost resource and because generation can 
be increased substantially at existing gasfired plants, in addition to 
building new plants. Even if the Suffolk University study had correctly 
assessed the impacts of an RPS, which I do not believe to be the case, 
the results would not apply to the President's clean energy proposal.
    While the President's proposal is not an RPS, other available 
analyses of an RPS, including several studies conducted by the Energy 
Information Administration at the request of both House and Senate 
Committees, estimated much smaller effects of an RPS on electricity 
prices and consumer expenditures.
    The President's clean energy proposal is not a mandate for higher 
electricity costs. The implications for electricity prices will depend 
on the specific details of the program, which have not yet been 
determined, but it is possible that electricity prices over the next 
decade would be reduced as generators using efficient natural gas 
plants would have an incentive to increase electricity generation. The 
long-run effect of the clean energy goal on electricity prices would 
depend significantly on the cost of various clean generation 
technologies in the future, and that is why it is important to reduce 
the costs of clean energy by accelerating the pace of innovation 
through research and development. In addition to the price of 
electricity, one must take into account the health and other economic 
and environmental benefits associated with reduced air pollution and 
climate impacts that result from using cleaner sources of energy.
    Electricity generation currently accounts for about one-third of 
U.S. greenhouse gas emissions, and nearly 40 percent of net U.S. 
emissions after accounting for land use and land-use change. A program 
that substantially reduces emissions associated with electricity 
generation would significantly reduce U.S. emissions. Policy actions by 
China, India, and other major emitters will be required to reduce 
global emissions and limit climate change. The United States cannot do 
it alone, but the United States should and must lead. Reductions in 
U.S. emissions are essential as part of a strategy to achieve 
reductions in global emissions, because other major emitters will not 
act in the absence of tangible action by the U.S., which is the world's 
largest economy. In addition to the direct health and environmental 
benefits of our own emissions reductions, there will be the larger 
effect of global emissions reductions that can be spurred by our 
willingness to act, as well as the economic benefits of leading the 
world in the development and deployment of clean and efficient energy 
technology. As the President has said many times, ``The nation that 
leads the clean energy economy will be the nation that leads the global 
economy.''

Q9.  You testify that you will soon be convening a new National Science 
and Technology Council STEM Education Committee. Please describe how 
you envision this Committee identifying duplicative and ineffective 
STEM programs across the federal government and what actions will be 
taken to save the American taxpayer from continuing to support these 
programs? Similarly, how will this Committee work to replicate or 
promote successful programs?

A1. STEM education itself is a very broad topic. It encompasses 
instructional activities that target the earliest years of school 
through adulthood, covers a large range of subjects and enormous 
variations in the depth of learning desired, varies with geography and 
local cultures and socio-economic conditions, involves a host of public 
and private enterprises, and involves a range of formal and informal 
educational settings. Because of the span and complexity of STEM 
education, it is appropriate that there are numerous and diverse 
programs devoted to it across a number of Federal entities. But there 
may well be some overlap and duplication, and the newly convened NSTC 
Committee on STEM Education will be examining this issue as called for 
in the America Competes Reauthorization Act of 2010.
    The first step in this process will be to appropriately 
characterize the numerous existing STEM education programs. A detailed 
classification of programs, once complete, will then allow us to 
determine appropriate methods and standards for evaluation to determine 
the effectiveness of a given program. We will work with OMB and the 
agencies to find suitable cost-effective ways to examine the 
effectiveness of the programs, and to find how their effectiveness can 
be improved.

Q9.  You testify that the Administration plans to invest $3.4 billion 
across the federal government for STEM education, including many new 
initiatives primarily at the Department of Education. While the 
Department of Education should certainly take a more active role in 
STEM, what is the rationale for shifting support from NSF to Education? 
How actively involved can you be, as Director of OSTP, in decisions 
being made at the Department of Education on STEM-related issues? What 
steps has the Administration taken to ensure that these new activities 
are researchbased and will have input from not only the education 
community but also the scientific community?

A1. Both NSF and the Department of Education can and should play 
critical roles in STEM education. Budgetary decisions on STEM-education 
programs are made within the individual agencies. In both NSF and the 
Department of Education there are multiple programs that are proposed 
for increases or decreases in the 2012 Budget in response to changing 
priorities and evaluations of the impact of existing programs. No 
explicit decision was made to trade off funds in one agency for funds 
in the other. Each agency has its particular mandates and strengths. 
The new Committee on STEM Education, working with the Office of 
Management and Budget, will work to better coordinate STEM education 
activities throughout the Federal government, including within NSF and 
the Department of Education. The importance of utilizing research and 
evaluation to inform STEM-education efforts is clear to OSTP. OSTP has 
and will continue to push all federal agencies to develop education 
efforts based on the latest research in education and scientific 
disciplines.

Questions submitted by Representative Paul Broun


Q1.  As a follow-up to our conversation regarding Scientific Integrity, 
please respond to the following:

        a.  Does your December memo exempt OMB or the White House 
        Offices from the scientific integrity guidelines?

        b.  Are you familiar with the memo your predecessor developed 
        titled ``Principles for the Release of Scientific Research 
        Results''?

        c.  Please point out how these documents differ.

Aa. No.
Ab. Yes.
Ac. One important difference is that the ``Principles'' document from 
the last Administration focuses on just one aspect of scientific 
integrity - the public release of scientific research results through 
the media and other channels. While that subject is covered in my 
Dec.17 memorandum (in a number of places but primarily in Section II), 
my memo covers a number of other issues important to scientific 
integrity, including the use of Federal Advisory Committees, activities 
relating to the professional development of Federal scientists and 
engineers, conflicts of interest, and whistleblower protections. My 
memorandum also explicitly calls upon all covered departments and 
agencies to craft scientific integrity policies consonant with the 
guidelines in his memorandum, and imposes a deadline by which time 
agencies and departments are to report to me on their progress.
    Further, with regard to public release of government information, 
my Memorandum goes further than the last Administration's. It 
explicitly notes that just telling the ``facts'' is not enough. 
Specifically, it insists that government scientists and communicators 
provide underlying assumptions, contextualization of uncertainties, and 
descriptions of probabilities associated with optimistic and 
pessimistic projections, including best-case and worst-case scenarios 
where appropriate. My memorandum also explicitly states that ``in no 
circumstance may public affairs officers ask or direct Federal 
scientists to alter scientific findings.''

Q2.  With regard to the BP Deepwater Horizon spill, please respond to 
the following:

        a.  What was your role in response to the BP Deepwater Horizon 
        spill?

        b.  Where did OSTP, OMB and Carol Browner fit into the national 
        incident command structure?

        c.  At any point did you approve or review scientific 
        documents, declarations of peer review, or the release of 
        scientific information from agencies? If so, which documents, 
        declarations, or releases? If not, why were other White House 
        offices like OMB and the Office of Energy and Climate Change 
        Policy involved in doing so, but not OSTP?

        d.  You have been appointed co-chair of the National Ocean 
        Council--an effort in part to better coordinate the Federal 
        ocean policy and the two dozen or so federal agencies that work 
        and have authority in the ocean. How will this new 
        organizational structure better manage a crisis like the one in 
        the Gulf last year? It appears as if you already had authority 
        and a charter to lead and coordinate federal science response 
        which you did not do with the BP Oil Spill. Will that change?

A2. As the Assistant to the President for Science and Technology and 
Director of OSTP, I participated in the Administration's response to 
the event from the outset, including taking part in the Principals' 
conference calls and Principals' meetings throughout its course.
    In the first days following the explosion, I helped Secretary Chu 
set up his government / private sector / academic science team focused 
on the challenge of capping the well. I provided an OSTP expert on 
deep-water drilling to serve as regular member of that group, and I 
took part myself in many of the team's intensive, multi-hour conference 
calls over the months culminating in the capping of the well.
    Also in the first days following the explosion, I and OSTP 
Associate Director for Environment Shere Abbott started reaching out to 
leaders in the ocean-science community both inside and outside the 
government to help create connections among them to ensure that as much 
as possible of the country's relevant expertise on understanding and 
mitigating the effects of oil in the oceans was brought to bear. Inside 
the Executive Branch, Ms. Abbott and I initiated interagency 
discussions involving NOAA, EPA, USGS, DOE, DHS, and FDA to identify 
S&T needs and capabilities for the response and recovery efforts and 
the longer-term concerns of restoration.
    With respect to the short-term issues, it was clear that agencies 
needed to work together to quantify oil, gas, and dispersant volumes; 
understand and forecast the fate of surface and subsurface oil and 
dispersants; assess ecosystem impacts, including seafood safety; and 
evaluate mitigation measures. To address these short-term needs, OSTP 
worked together alongside other offices of the Executive Office of the 
President and the relevant Federal departments and agencies to 
establish action teams that immediately began working on analyzing the 
oil flow rate, the fate of oil in the water column and at the surface, 
dispersant use and its impacts, measurements and monitoring, coastal 
impacts and mitigation, seafood impacts and mitigation, and rapid 
assessment of mitigation technologies. OSTP also helped to foster the 
creation of the interagency Joint Analysis Group to provide rapid 
analyses of emerging data to guide real-time response, and OSTP's 
experts were mainstays of that group's work throughout the duration of 
the spill and continuing into the recovery and restoration phases.
    OSTP's outreach to the nongovernmental community of expertise, 
meanwhile, was ultimately broadened and formalized in a series of 
national workshops bringing together the directors and research leaders 
from marine science centers around the country with experts from the 
relevant Federal departments and agencies. With Associate Director 
Abbott and USGS Director Marcia McNutt, I co-convened the first of 
these national meetings at EPA headquarters on May 19, attended by 30 
leaders of the nongovernmental research community and 30 government 
officials including Secretary Salazar, Administrator Jackson, and 
Assistant Secretary Robinson of NOAA. One result of that meeting was a 
decision by NOAA, NSF, and EPA to expedite funding to universities for 
critical research in the Gulf of Mexico. Numerous follow-on meetings 
covering topics such as coastal and ocean impacts and dispersants took 
place in the Gulf region, hosted by NOAA, NSF, and EPA, with OSTP 
assistance and participation.
    In May 2010, OSTP also began to work on longer-term research needs 
including: the impacts of dispersants on the marine ecosystem; 
monitoring programs for the coasts and deepwater; the fate and impacts 
of oil on deepwater ecosystems; and the development of new clean-up 
technologies. We engaged the National Science and Technology Council's 
Subcommittee on Ocean Science and Technology (SOST) to begin 
interagency work on many of these issues. SOST organized and executed a 
workshop in early October for scientific investigators to discuss early 
results of their work and catalyze efficient and productive 
collaborations.
    For long-term recovery needs, OSTP provided input to Secretary 
Mabus' report, America's Gulf Coast--A Long Term Recovery Plan, that 
lays the foundation for the current work of the President's Gulf Coast 
Restoration Task Force. OSTP's Associate Director for Environment 
serves on this Task Force, and our Assistant Director for Ocean 
Sciences serves on its Science Coordination Team. OSTP contributed to 
Secretary Mabus' plan, particularly in its recommendation that 
restoration activities be firmly based in sound science.
    Carol Browner, Assistant to the President for Energy and Climate 
Change, operated as the EOP coordinator of activities related to the 
oil spill. I reported regularly to her on OSTP's activities in bringing 
relevant S&T expertise to bear, and also participated in Principals' 
meetings on the subject.
    The Office of Management and Budget (OMB) established a procedure 
for coordinated review of information related to the oil spill from the 
EOP and Federal agencies. OSTP participated in these OMB-coordinated 
reviews. The President's July Executive Order establishing a new 
National Ocean Policy and cabinet-level National Oceans Council, which 
I co-lead with CEQ Chair Nancy Sutley, has put in place a framework for 
coordination and interaction among responsible Federal entities and 
stakeholders in state and local governments, tribal authorities, the 
private sector, and NGOs that, among many other benefits, will 
facilitate the coordinated responses that events like the Gulf oil 
spill require. The Policy's focus on strengthening the marine science 
knowledge base and monitoring capabilities will also increase the 
national capacity to cope with and recover from future oil spills as 
well as other events impacting our oceans and coastlines.

Q3.  With regard to the Gulf Coast Research Initiative, please respond 
to the following:

        a.  What was your role in working with BP on the independent 
        Gulf Research Initiative, which set aside $500 million for 
        scientific research?

        b.  When did you first hear of it?

        c.  What was the funding mechanism they were considering?

        d.  BP was ready to release a RFP on June 15 - but later stated 
        they were directed by the White House to work with the Gulf 
        Governors. (see White House Fact Sheet, June 16, 2010). Were 
        you a party to those discussions?

        e.  Under what authority did the White House direct the GRI to 
        work with Governors?

        f.  When did you learn of the plan to delay the RFP to work 
        with the Governors?

        g.  Did you think was a good idea?

        h.  You had to expect a delay - which would mean that critical 
        research and data could be missed while negotiating with the 
        governors. As his Science Advisor, did you brief the President 
        on how this delay would impact science?

        i.  Only around $40-$50 million has been released so far, and 
        at an 8 month delay. Were the awards included in that $40-$50 
        million peer reviewed?

        j.  Would proposals have been peer reviewed under the system in 
        place before White House intervention?

        k.  What are the benefits of working with the Governors?

        l.  Do they outweigh this delay?

        m.  Would you characterize this as a slush fund?

A3. The Gulf Coast Research Initiative (GRI) is a program led and 
administered by BP. I learned of BP's interest in supporting a long-
term scientific research program associated with the oil spill in mid-
May, 2010, when staff from OSTP and the Departments of Commerce and 
Interior met with BP officials following the OSTP-led forum at EPA on 
``Scientific Research on the Effects and Fates of Oil in the Ocean''. 
At the post-forum meeting, BP's chief scientist described what the 
company had in mind for the GRI, which was to provide $500 million over 
a 10-year period to create a broad independent research program that 
would investigate the impacts of the oil and dispersant on the 
ecosystems of the Gulf of Mexico and affected coastal States. My 
government colleagues and I were welcoming of this BP initiative.

Questions submitted by Representative Marcia L. Fudge


Q1.  Last Congress, I introduced an amendment to COMPETES that would 
direct NSF and Department of Education to collaborate and identify the 
grand challenges facing research and development in STEM education 
teaching and learning. Specifically, it aimed to address how we can 
scale successful programs, increase teacher effectiveness, broaden 
participation, and understand the role of cyber-enabled teaching tools. 
This amendment also required the agencies to solicit input from 
stakeholders in the STEM community.

Q2.  I am pleased to see that OSTP is in the process of establishing an 
interagency STEM education committee. Could you please describe how the 
committee plans to solicit input from all the various STEM education 
stakeholders, and also address the challenges I just listed, especially 
the need to improve coordination on STEM education research?

A. The Committee on STEM Education is very sensitive to the importance 
of all of these factors and the need to obtain input from stakeholders. 
The Committee recently met for the first time (on March 4, 2011). It is 
now in the process of formulating plans for how to achieve these goals.

Questions submitted by Representative Ben R. Lujan


    Regional Innovation Clusters:
    Thank you for your commitment to job creation and making America a 
leader in technology and innovation. As you know, the America COMPETES 
Act authorized the Regional Innovation Program to promote regional 
innovation clusters. Research parks have the capability of bringing 
together students, entrepreneurs, scientists and engineers and other 
key innovators to support cutting edge research and development 
activities. My home state of New Mexico, for example, is currently 
engaged in science park activities at Los Alamos Research Park, the 
Sandia Science and Technology Park and the University of New Mexico 
Science and Technology Park. I believe these parks can serve as a basis 
for forming an innovation cluster.

Q1.  The President's FY12 Budget Request requests $40 million for this 
program, $60 million less than the authorization amount. Can you 
discuss in more detail the Administration's vision for implementation 
of this program, especially considering the scaled-back funding 
request?
A1. The Department of Commerce's Economic Development Administration 
(EDA) will implement the Regional Innovation Program. EDA's vision for 
implementing this program follows:

    Regional Innovation Program:

    Base Funding: $0.0 million; Program Change: + $40.0 million. EDA 
requests an increase of $40.0 million for a total of $40.0 million to 
fund the new Regional Innovation Program to foster collaboration across 
the Federal government to build regional innovation clusters based upon 
the inherent strengths of a community.

    Proposed Actions:

    The ``America COMPETES Reauthorization Act of 2010'' will help 
advance the President's vision by encouraging innovation that builds 
capacity for regions to improve and advance toward the future. This Act 
created the new Regional Innovation Program, which will be implemented 
by EDA, to build upon the understanding that robust regional innovation 
cluster strategies create a blueprint for improving the conditions or 
``ecosystem'' in which innovation companies and entrepreneurs can 
accelerate the development or new businesses, products or services.
    In FY 2012, under this new Regional Innovation Program, EDA will 
implement a Growth Zones initiative. The Growth Zones initiative will 
provide strategic investments to help communities leverage their 
innovation ecosystems to create jobs, businesses, and regional 
prosperity. Specifically, the program will support a nationwide 
competition to encourage 20 communities to develop and implement 
regional strategic plans that identify how the community can build 
onassets and link to drivers of regional economic growth in order to 
stimulate job creation, business expansion and creation, and enhanced 
regional prosperity.

    Statement of Need and Economic Benefits:
    In his State of the Union Address the President stated, ``We need 
to out-innovate, out-educate, and out-build the rest of the world. We 
have to make America the best place on Earth to do business. We need to 
take responsibility for our deficit and reform our government. That's 
how our people will prosper. That's how we'll win the future.''
    The Obama Administration is responding by embracing more flexible 
and innovative policies and by launching strategic initiatives that 
will achieve smarter utilization of existing federal resources. For 
example, EDA launched its Jobs and Innovation Partnership to stimulate 
innovation and collaboration, which are key drivers of regional 
economic development. EDA's Regional Innovation Program (Growth Zones) 
will further advance the Jobs and Innovation Partnership by providing 
strategic investments to help communities leverage their innovation 
ecosystems to create jobs, businesses, and regional prosperity. In 
short, through the Regional Innovation Program EDA will support 
investments that will help communities mitigate the impact of the 
recent fiscal downturn and accelerate the transition toward a more 
prosperous economy. This need is particularly acute given the current 
fiscal crisis and the national jobs and growth outlook.

    Base Resource Assessment:

    In FY 2012, this program will be specifically targeted to support 
Growth Zones, a collaborative, multi-agency effort to stimulate 
regional economic development. Specifically, the program will support a 
nationwide competition to encourage 20 communities to develop and 
implement regional strategic plans that identify how the community can 
build on assets and link to drivers of regional economic growth in 
order to stimulate job creation, business expansion and creation, and 
enhanced regional prosperity.

    Schedule & Milestones:

    FY 2012-2016

    Creation of Regional Innovation Program (Growth Zones) Expansion of 
inter-Agency collaboration related to Regional Innovation Clusters

    Deliverables:

    FY 2012-2016

    Strategic investments that can support globally competitive 
regions, promote regional innovation clusters, and encourage 21st 
Century innovation infrastructure; and, increasing focus on 
collaborative funding with other Federal agencies to leverage federal 
grant funds, support regional innovation clusters, and contribute to 
sustainable economic development.''

Q2.  Minorities in STEM The recent National Academy of Sciences report 
Expanding Underrepresented Minority Participation: America's Science 
and Technology Talent at the Crossroads makes clear that we must 
continue our efforts to increase minority participation in STEM. In 
2007, underrepresented minorities comprised 33.2% of the U.S. college 
age population, and 26.2% of undergraduate enrollment, yet only 17.7% 
of those were earning science and engineering bachelor's degrees. As 
OSTP moves forward with its new interagency STEM committee to 
coordinate federal STEM education programs, how will the committee 
ensure that this important challenge is addressed?

A. Broadening participation is certainly a primary goal of the new 
Committee on STEM Education. The two separate, yet both very important, 
issues relating to these statistics are: First, the quality of 
preparation of underrepresented minorities in K-12 for college and 
careers; and second, retaining underrepresented minority students who 
enter college as STEM majors in those majors. The Committee will look 
closely at the level and quality of investment in programs that address 
these issues, as well as exploring ideas for how to do better.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
